        How to Report Fraud
The SSA OIG Fraud Hotline offers a means for you
to provide information on suspected fraud, waste,
and abuse. If you know of current or potentially
illegal or improper activities involving SSA programs
or personnel, we encourage you to contact the SSA
OIG Fraud Hotline.
Call                 1-800-269-0271
Write                Social Security Administration
                     Office of the Inspector General
                     Attention: SSA Fraud Hotline
                     P. O. Box 17768
                     Baltimore, MD 21235
Fax                  410-597-0118
Email                oig.hotline@ssa.gov                                 An Investment in Integrity
web                  www.ssa.gov/oig
                                                                         Social Security Administration
                                                                         Office of the Inspector General


                                                                         Semiannual
        To obtain additional copies of this report, visit our website,
                  www.ssa.gov/oig or call 410-966-4020
                                                                          Report to Congress
                           SSA Pub. No. 85-007
                                                                         April 1, 2002 Thru September 30, 2002
                              October 2002
Social Security Administration
Office of the Inspector General

      Semiannual Report to Congress
        MISSION STATEMENT                                                                                           Inspector General

                                                                                                                    James G. Huse, Jr.
        By conducting independent and objective audits, evaluations,
        and investigations, we improve the SSA programs and                                                  Deputy Inspector General
        operations and protect them against fraud, waste, and abuse.
                                                                               Immediate Office of
        We provide timely, useful, and reliable information and advice        the Inspector General                    Jane E. Vezeris
        to Administration officials, Congress, and the public.


                   VISION AND VALUES                                          Chief Counsel to the
                                                                               Inspector General
                                                                                                         Assistant Inspector
                                                                                                              General
                                                                                                                                        Assistant Inspector
                                                                                                                                             General
                                                                                                                                                                      Assistant Inspector
                                                                                                                                                                           General
                                                                                                             for Audit                  for Investigations         for Executive Operations
                   We are agents of positive change striving for continuous     Kathy A. Buller
                                                                                                         Steven L. Schaeffer           Patrick P. O’Carroll          Stephanie J.Palmer
                   improvement in SSA’s programs, operations, and
                   management by proactively seeking new ways to prevent
                   and deter fraud, waste, and abuse. We are committed to
                   integrity and to achieving excellence by supporting an
                   environment that encourages employee development and
                   retention, and fosters diversity and innovation, while      Deputy Chief Counsel to   Deputy Assistant Inspector   Deputy Assistant Inspector   Deputy Assistant Inspector
                   providing a valuable public service.                         the Inspector General       General for Audit         General for Investigations     General for Executive
                                                                                                                                                                          Operations

                                                                                   Glenn E. Sklar              Gale S. Stone               Steve W. Mason             Robert L. Meekins
SSA OFFICE OF THE INSPECTOR GENERAL



Message from the Inspector General
This has been a dramatic year for the Office of the Inspector General (OIG) of
the Social Security Administration (SSA). The ongoing war against terrorism
has added urgency to protecting the integrity of the Social Security number
(SSN). The SSN has become a vital aspect of American life and of homeland
security. Its reliability is a key element, not only in protecting
against fraud, but also in protecting lives at home and abroad.
I have testified before Congress six times during this reporting
period concerning SSN misuse and I continue to support efforts
to further protect the SSN.

OIG’s accomplishments in combating fraud, waste and abuse
have been achieved through the dedicated efforts of every OIG
staff member. Because of this commitment, we continue to make
significant progress in every area of our organization. Our
investigators reported over $206 million in investigative
accomplishments with over $22 million in SSA recoveries,
restitution, fines, settlements, and judgments and over $184
million in SSA savings. Our attorneys reported over $664,000 in
penalties and assessments imposed for persons making false
statements. And finally, in Fiscal Year (FY) 2002 our auditors
issued 88 reports with recommendations that over $159 million
in Federal funds could be put to better use and identified over
$15 million in questioned costs. Thus OIG returned $8 in savings
and recovered funds for every $1 Congress appropriated.
                                                                            Inspector General
Twice a year it is my privilege and responsibility as Inspector            James G. Huse, Jr.
General to report to the Congress and SSA’s Commissioner on
OIG’s accomplishments. This Semiannual Report to Congress, covering the
period of April 1, 2002 through September 30, 2002, meets the requirements
of the Inspector General Act of 1978, as amended, and includes information
that is mandated by Congress. It outlines our mission, describes significant
activities, and provides our assessment of SSA’s top management issues for FY
2002. It also includes highlights of our accomplishments for each of these
challenges, including several major cases and other organizational
achievements.

Social Security remains an American cornerstone. As we continue to work with
SSA to achieve measurable results, we strive to anticipate future challenges
for ongoing and planned work to achieve our desired goals.

                             Sincerely,




                             James G. Huse, Jr.
                             Inspector General




                                                                        Message from the Inspector General
                                     SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Message from the Inspector General
SSA OFFICE OF THE INSPECTOR GENERAL



Table of Contents
Message from the Inspector General .................................................................................................i
Introduction to Our Organization .....................................................................................................1
Significant Activities .........................................................................................................................3
        Homeland Security Efforts ........................................................................................................ 3
        Fugitive Felon Program ............................................................................................................ 5
        Cooperative Disability Investigations Program ............................................................................. 7
        False Statements and Misleading Advertising .............................................................................10
        Partnership with U.S. Attorneys ...............................................................................................12
        Investigative Accomplishments ................................................................................................13
Significant Management Issues Facing SSA ....................................................................................16
        Issue 1: Fraud Risk ................................................................................................................17
        Issue 2: Improper Payments ...................................................................................................22
        Issue 3: Systems Security and Controls ....................................................................................28
        Issue 4: Service Delivery ........................................................................................................31
        Issue 5: Human Capital ..........................................................................................................34
        Issue 6: Performance, Management, and Data Reliability.............................................................35
        Issue 7: Management of the Disability Process ...........................................................................38
        Issue 8: Integrity of the Earnings Reporting Process ...................................................................42
        Issue 9: SSN Misuse and Privacy Concerns (Identity Theft)..........................................................47
        Issue 10: Integrity of the Representative Payee Program ............................................................52
Appendices .....................................................................................................................................59
      Appendix A ...........................................................................................................................61
      Appendix B ...........................................................................................................................63
      Appendix C ...........................................................................................................................69
      Appendix D ...........................................................................................................................71
      Appendix E............................................................................................................................73
      Appendix F............................................................................................................................75
      Appendix G ...........................................................................................................................81
      Appendix H ...........................................................................................................................83
      Appendix I ............................................................................................................................85
SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002
SSA OFFICE OF THE INSPECTOR GENERAL                                                             1



Introduction to Our Organization
OIG is comprised of five components: Office of the Chief Counsel to the
Inspector General (OCCIG), Office of Audit (OA), Office of Investigations (OI),
Office of Executive Operations (OEO), and the Immediate Office of Inspector
General (IO).


Office of the Chief Counsel to the Inspector General
OCCIG reviews and evaluates legislation, regulations, and standard operating
procedures in terms of their impact on program economy and efficiency or
their prevention of fraud and abuse. It also provides legal advice and counsel
to the IG on various matters, including: (1) statutes, regulations, legislation,
and policy directives governing the administration of SSA programs; (2)
investigative procedures and techniques; and (3) legal implications and
conclusions to be drawn from audit and investigative material produced by the
OIG. OCCIG also administers the Civil Monetary Penalty (CMP) program, which
the Commissioner of Social Security delegated to OIG.


Office of Audit
OA conducts comprehensive financial, performance, and systems audits and
evaluations of SSA programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers (CFO) Act of 1990, assess whether
SSA's financial statements fairly present SSA's financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency,
and effectiveness of SSA's programs. OA also conducts short-term
management and program evaluations and projects focused on issues of
concern to SSA, Congress, and the general public. Evaluations often focus on
identifying and recommending ways to prevent and minimize program fraud
and inefficiency.


Office of Investigations
OI conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA
programs and operations, in accordance with the Quality
Standards for Investigations published by the President's
Council on Integrity and Efficiency; SSA OIG Special Agent
Handbook; and other applicable laws, policies, and
regulations. These activities include wrongdoing by
applicants, beneficiaries, contractors, physicians,
interpreters, representative payees, other third parties,
and SSA employees. OI also conducts joint investigations
with other Federal, State, and local law enforcement
agencies.


Office of Executive Operations
OEO supports OIG by providing information resource
management; systems security and development; and the



                                                                           Introduction to Our Organization
         2                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                          coordination of budget, procurement, telecommunications, facilities and
                          equipment, and human resources. In addition, this office is the focal point for
                          the OIG's strategic planning function and the development and implementation
                          of performance measures required by the Government Performance and
                          Results Act of 1993 (GPRA). Finally, OEO administers OIG's public affairs,
                          media and interagency activities and coordinates responses to congressional
                          requests for information.


                          Immediate Office of the Inspector General
                          IO consists of two principal functions: (1) the Office of Quality Assurance,
                          which is responsible for performing internal reviews to ensure that OIG offices
                          nationwide hold themselves to the same rigorous standards that we expect
                          from SSA as well as conducting investigations of OIG employees when
                          necessary, and (2) the Ombudsman Program which reports directly to the
                          Inspector General (IG).




             Deputy Inspector General Jane Vezeris, Assistant Inspector General (AIG) for Audit
             Steven L. Schaeffer, Chief Counsel to the IG Kathy A. Buller, AIG for Executive Operations
             Stephanie J. Palmer, and AIG for Investigations Patrick P. O’Carroll lead the IG staff.




Introduction to Our Organization
SSA OFFICE OF THE INSPECTOR GENERAL                                                           3



Significant Activities
OIG’s task is to help SSA work faster and smarter in its service and
stewardship, and make the best use of technological benefits to ensure SSA’s
success. Naturally, we must do the same thing. We have made steady progress
while expanding our role, and our effectiveness shows in the sustained
accomplishments highlighted throughout this report.

This section details several of our most significant activities, including our

 Homeland Security Efforts
 Fugitive Felon Program
 Cooperative Disability Investigations Program
 Battle Against Senior Citizen Scams and False Statements.
 Investigative Accomplishments


                       Homeland Security Efforts
                       Our involvement in homeland security is mandated by
                       the role the SSN plays in establishing false identities
                       and in facilitating the commission of financial crimes
                       which can be used to finance terrorism. The SSN must
                       be protected at its source. Our core role is to protect the
                       integrity of the SSN process and to ensure the accuracy
                       of SSA’s records.

                      With that in mind, our support for homeland security
has taken several forms:

 Testimony before six congressional hearings in this reporting period on the
  threats to SSN integrity and measures we believe would reduce those
  threats significantly.
 Participation nationally, regionally, and locally in a variety
  of task forces that have combated various vulnerabilities
  to terrorism.
 Participation as well in airport security operations
  conducted across the country under the aegis of the
  Offices of United States Attorney, to help ensure that
  airport employees with access to secure areas are who
  they claim to be.
 Audits that have discovered and reported on areas where
  SSA’s programs are working and where they need change
  with respect to securing the integrity of the SSN.

We reiterated to Congress our assessment of SSA’s business processes for
issuing and protecting SSNs -- an assessment we have been making for a
number of years -- immediately after the attacks of September 11, 2001. We
have given Congress our evaluation of new techniques to improve SSN
verification and decrease identity theft.




                                                                                     Significant Activities
          4                        SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Throughout our testimony and other responses to Congress, we have stressed
                         the importance of interagency data verification and data matching agreements
                         between Federal and State agencies.

                         Requiring SSA field offices (FO) to verify identification documents of
                         non-citizens applying for SSNs has been a problem. The Immigration and
                         Naturalization Service (INS) and SSA “should find a way to authenticate
                         immigration documents before an SSN is issued,” Inspector General Huse told
                         members of the Senate Finance Committee in a July 11 hearing. “We must
                         ensure that no SSN is issued based on INS documents that a simple
                         interagency check could have revealed to be fraudulent. The lack of adequate
                         controls over this process creates a national security risk that both the
                         Commissioner and I find unacceptable.”

                         SSA’s OIG is part of various anti-terrorism task forces, along with such
                         agencies as the Department of Justice (DOJ), Federal Aviation Administration
                         (FAA), and INS. We became immediately involved and remained involved in
                         the terrorist investigation following the events of September 11th because of
                         the nature of our jurisdiction with respect to the integrity and use of SSNs and
                         the records SSA maintains as a consequence of that activity.
Protecting the
integrity of that
                         Our participation has been recognized as particularly helpful. For example,
identifier is as
                         Federal Bureau of Investigation (FBI) Director Robert S. Mueller III presented
important to our
                         a special award to OIG's Critical Infrastructure Division for its “commendable
homeland
                         performance during a Joint Task Force investigation.” Following the September
security as any
                         11th attacks, division personnel participated in a full-time investigative effort
border patrol or
                         at the FBI Headquarters, providing assistance in intelligence and threat
airport
                         analysis. The award particularly cited their “outstanding cooperation and
screening.
                         investigative talents” which enabled the Task Force to better achieve its
                         objectives.

                         Also, OIG’s World Trade Center Response Team was presented the prestigious
                         Interagency Resources Management Conference (IRMCO) Award On
                         September 2, 2002, at IRMCO’s 41st annual conference. The award, sponsored
                         by the General Services Administration (GSA) and the Federal Chief
                         Information Officer Council, is granted annually to an individual and a team
                         who have demonstrated exceptional ability to operate across organizational
                         boundaries to improve the Government’s service to its people. The World Trade
                         Center Response Team responded to the challenges that emerged from the
                         tragic events of September 11, 2001 with a high sense of duty and dedication.
                         All 21 team members were from OI's New York Field Division.

                         Today it is unrealistic to believe that the SSN is simply a number for tracking
                         workers’ earnings and the payment of social insurance benefits. The SSN has
                         become the de facto national identifier. Protecting the integrity of that
                         identifier is as important to our homeland security as any border patrol or
                         airport screening. We must protect the SSN that has become our national
                         identifier, and is the key to social, legal, and financial assimilation in this
                         country.

                         The following cases illustrate our efforts against terrorism.

                         The Anti-Terrorist Task Force (ATTF) arrested a man in Oregon who had trained
                         with Palestinian guerrilla groups since he was 12. A convicted felon, he was


Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                           5



carrying a loaded assault rifle and pistol, along with hundreds of rounds of
ammunition. In his home ATTF found a 2001 calendar with September 11th
circled in red, three different Social Security cards in his name, evidence of
credit card fraud and $20,000 in cash, and indications he was connected to a
terrorist group. OIG determined he had obtained three different SSNs from
SSA by falsifying two of his three SSN applications. He was incarcerated and
turned over to the INS for deportation. This case led to the arrest of a
suspected al Qaeda cell in Oregon in September 2002.

                  A Jordan national gave a false Illinois driver's license with
                  another person's name and SSN to obtain a Louisiana driver's
                  license and secure a “Hazmat” endorsement on his commercial
                  driver’s license (CDL). He used another person's SSN to get a
                  vendor's permit and a credit application. He was indicted and
charged with three counts of illegal use of an SSN and one count of fraudulent
use of identification documents. The indictment alleged he had misused
another person's SSN for personal benefit on several occasions. He pleaded
guilty to illegal use of an SSN and was incarcerated.

                Since the first airport operation in
                Salt Lake City in December 2001,
                OIG has participated in 36 airport
                security operations across the
                country, 28 of those during this
semi-annual period. Working with Joint Terrorism
Task Forces and other Federal agencies under the
aegis of the Offices of United States Attorneys,
we have helped to ensure that no airport
employee who has misrepresented his or her
SSN and identity has access to secure areas of
the Nation’s airports. The primary charges have
been related to SSN misuse, false statements
and INS violations.


Fugitive Felon Program
The Fugitive Felon Program was established as a result of the enactment of the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
Public Law (P.L.) 104-193, commonly known as the Welfare Reform Act, on
August 22, 1996. Generally, this law makes a person ineligible to receive
Supplemental Security Income (SSI) payments during any month in which the
recipient is

 Fleeing to avoid prosecution for a crime that is a felony.
 Fleeing to avoid custody or confinement after conviction, under the laws of
  the place from which the person flees, for a crime or an attempt to commit
  a crime which is a felony under the laws of the place from which the person
  flees, or which, in the case of the State of New Jersey, is a crime of the first
  through fourth degree.
 Violating a condition of probation or parole imposed under Federal or State
  law.




                                                                                     Significant Activities
          6                        SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         The Welfare Reform Act enables SSA to suspend SSI payments to fugitives and
                         parole and probation violators, and allows us to provide vital information to
                         law enforcement agencies. Investigators in our offices often work
                         hand-in-hand with local law enforcement officers in locating and apprehending
                         fugitive felons, and in developing fugitive cases from a variety of referral
                         sources, such as fugitive task forces and SSA staff.

                         As shown in the following table, while the program has been very successful
                         using manual data searches and direct referrals, our experience has shown
                         that using automated data matches to compare warrant information at the
                                      Federal and State levels with SSA’s SSI rolls is a much more
                                      efficient way to carry out the provisions set forth by the Welfare
                                      Reform Act. In an effort to obtain warrant information through an
                                      electronic medium, we have secured Memoranda of
                                      Understanding with the National Crime Information Center
                                      (NCIC), the FBI, and United States Marshals Service (USMS).

                                      SSA has also entered into computer matching agreements with
                                      the States of California, New Jersey, South Carolina, Kentucky,
                                      Nebraska, Ohio, Tennessee, Massachusetts, Colorado, Rhode
                                      Island, Washington, Delaware, Illinois, Montana, Connecticut,
                                      New York, Pennsylvania, Indiana, Wisconsin, South Dakota,
                                      Michigan, Alaska, Alabama, Hawaii, and Oregon. In addition to
                                      the listed States, SSA has also entered into agreements with the
                                      New York City Police Department (PD), Baltimore County PD, and
                                      City of Philadelphia PD, and the Montgomery County, PA, Sheriff’s
                         Office. SSA continues to pursue matching agreements with the balance of the
                         States that do not enter all of their felony warrant data into NCIC and we
                         continue to work with SSA to further refine and enhance the automated
                         process.

                         As part of this Program, our investigators are able to assist local law
                         enforcement in apprehending these fugitives. The following cases highlight our
                         efforts in this area.

                                         We were recently asked to join forces with USMS New York–
                                         New Jersey Regional Fugitive Task Force, which was created at
                                         the request of the Attorney General to locate and apprehend
                                         violent fugitives. As a direct result of information we provided,
                                         a fugitive who had been wanted for over 19 years for a series
                         of violent sexual attacks on young boys was apprehended. The fugitive had
                         moved from New York to the West Coast, where he began to receive SSI
                         payments. This was one of the oldest open cases assigned to the task force.

                                           Florida police arrested a man and held him for a week before
                                           discovering that the person they really wanted was a felon who
                                           had assumed and used the jailed man’s identity for 12 years.
                                           The felon had married two women, held several jobs, amassed
                                           large debts, and violated numerous laws under the assumed
                         identity. Our Atlanta Field Division, in a joint investigation, with the local
                         sheriff’s office and the Florida Department of Law Enforcement determined
                         that the man was wanted on a felony charge in New Jersey and until his arrest,
                         had received SSI benefits under the stolen identity. Investigators also found
                         that he was also receiving Survivor’s benefits under that identity, having


Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                           7



concealed his latest marriage from SSA. He was ordered to pay $22,824 in full
restitution to SSA, in addition to over $32,000 restitution to the State
government organizations and the individual victimized by his crimes

                Our New York Field Division investigated a woman who was
                receiving SSI benefits, had outstanding warrants from 4 states,
                and was violating supervised release for bankruptcy fraud
                involving SSN misuse. Since her earlier conviction, she had
                used a fraudulent SSN to gain identification, open a bank
account, get married, obtain a job, and defraud 2 financial institutions with a
check-kiting scheme. She was incarcerated for fraud and violating supervised
release, to be followed by additional supervised release.

The table below demonstrates the success of this Program for this reporting
period and since its inception on August 1, 1996.

Fugitive Felon Program Statistics
                               April 1, 2002 -           Since inception on
                             September 30, 2002             August 1996

Fugitives Identified                         22,887                      88,744

Fugitives Arrested                             3,320                     10,310

Fraud Loss / Overpayment                 $86,296,377               $223,711,158

Projected Savings                       $127,895,535               $340,935,974



Cooperative Disability Investigations Program
SSA’s Office of Operations and Office of Disability, along with our Office of
Investigations, manage the Cooperative Disability Investigations (CDI)
program. The mission of the CDI program is to obtain evidence that can
resolve questions of fraud in SSA’s disability programs. This supported SSA’s
FY 2002 strategic goal of ensuring the integrity of Social Security programs,     The mission of the
with zero tolerance for fraud and abuse.                                          CDI program is to
                                                                                  obtain evidence
CDI units, consisting of OI special agents and personnel from SSA’s Offices of    that can resolve
Operations and Disability, the States' Disability Determination Services (DDS),   questions of fraud
and State or local law enforcement, rely on the combined skills and specialized   in SSA’s disability
knowledge of these personnel to                                                   programs.

 Provide the DDS with investigative evidence for use in making timely and
  accurate disability eligibility determinations.
 Seek criminal and/or civil prosecution of applicants and beneficiaries and
  refer cases for consideration of CMPs and administrative sanctions when
  appropriate.
 Identify, investigate, and seek prosecution of doctors, lawyers,
  interpreters, and other third parties who facilitate and promote disability
  fraud.

The success of the CDI Program is directly attributable to this close
collaboration. This cooperative venture has grown over time, and its continued
successes garner significant support for future expansion of this program.



                                                                                     Significant Activities
            8                                SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                               Seventeen investigative units have been opened since Fiscal Year (FY) 1998.
                               CDI units are located in Atlanta, Baton Rouge, Boston, Chicago, Cleveland,
                               Dallas, Houston, Nashville, New York City, Trenton, Oakland (California),
                               Phoenix, Richmond (Virginia), Salem (Oregon), St. Louis, Seattle, and Tampa,
                               with 3 additional units planned for FY 2003.

                               The table on the following page outlines our CDI Program statistical
                               accomplishments for this reporting period and for FY 2002.

                               Cooperative Disability Investigations Project Statistics
                               April 1, 2002 through September 30, 2002

                                                  Confirmed             SSA
                                Allegations         Fraud           Recoveries &                                           Non-SSA
                                 Received           Cases           Restitutions              SSA Savings*                 Savings*

 Atlanta                                   133               92              $23,755                  $5,730,582               $1,834,058

 Baton Rouge                                83               27             $121,878                  $1,567,722                  $501,820

 Boston                                     64               22                       -               $1,241,476
                                                                                                                                  $607,998

 Chicago                                    86               27             $261,989                  $1,602,660
                                                                                                                                  $587,960

 Houston                                    65               47                       -               $2,581,879               $1,303,189

 Nashville                                  83               27                       -               $1,652,528                  $931,825

 New York City                             180               42                       -               $2,592,400               $3,053,640

 Oakland                                   170               91                       -               $5,380,626               $4,117,875

 Richmond*                                  17                 8             $36,392                     $436,901                         -

 Salem                                     142               72                       -               $4,164,560               $3,661,830

 St. Louis                                  74               56              $14,195                  $2,969,553               $1,611,760

 Tampa                                     104               42             $138,909                  $2,596,744               $1,056,881
 Trenton                                   133               50             $124,398                  $3,022,523               $2,561,200

 TOTALS                                 1,335               603            $721,516                 $35,540,154             $21,830,036

 October 1, 2001 to                       923               462          $826,889*                  $27,367,772             $16,494,654
 March 31, 2002
 TOTALS

 FY 2002 GRAND                          2,258            1,065          $1,548,405                  $62,907,926             $38,324,690
 TOTAL
     *     Roanoke CDI transferred to Richmond CDI effective August 2002. The four new sites in Seattle, Phoenix, Dallas and Cleveland
           were opened in September 2002 and are not included in the table. Figure reduced by $47,512 due to reporting error. When a
           CDI investigation supports the cessation of an in-pay case, the SSA program savings are calculated by multiplying the actual
           monthly benefit times 60 months. Non-SSA savings are also projected over 60 months whenever another governmental
           program withholds benefits as a result of CDI investigations, using estimated or actual benefit amounts documented by the
           responsible agency.


                               CDI Case Highlights

                               The following cases highlight the success story of cooperation and concerted
                               efforts of team personnel in the CDI program in the quest to reduce and deter
                               disability fraud.




Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                          9



                 Based on a DDS referral, our Houston CDI team investigated a
                 36-year-old man who filed for continuance of his disability
                 insurance benefits alleging depression and uncontrollable
                 shaking of his hands. During the psychiatric examination, the
                 man was very dramatic, shook excessively, and reported that
his brother-in-law had to help bathe him. He said he needed help with
shopping, cooking, cleaning house, paying his bills, and other areas of daily
living, and claimed all he did every day was sleep and
watch television. Our investigators found he had been
gainfully employed for the past eight years, shining
shoes at an airport five days a week for eight to nine
hours each day. The man’s disability benefits were
discontinued.

                The New Jersey DDS notified our
                Trenton CDI unit of indications a man
                was faking blindness. He had filed for
                disability benefits, alleging that he
                was unable to read or drive due to
visual impairment, and participated in very little
social or recreational activity. Our investigation
revealed he had recently enrolled in a college computer repair program.
During the application process, he completed a 20-page exam with no visual
aid, scoring with the highest possible score. Our investigation also revealed the
man frequented the computer laboratory at the college, where he would use
the computers without apparent visual aids. His claim was denied.

                Based on a DDS referral, our Salem CDI unit investigated an
                Oregon man who had filed for disability benefits alleging back
                injury with medical need for forearm crutches or a wheelchair.
                CDI investigators observed the man walking without a cane,
                entering his vehicle with no apparent problems, and bending
over in his vehicle to move or adjust an unknown item. At his doctor’s office,
however, he used crutches and a wheelchair. Our investigation resulted in the
DDS denying the claim.

               Our Boston CDI unit pursued a DDS referral regarding a
               47-year-old Massachusetts man who filed for disability
               benefits, claiming to have back pain, stomach pain, headaches,
               insomnia, poor concentration and depression resulting from
               trauma he said he suffered while in a communist re-education
camp from 1975 through 1980. CDI investigators observed him packaging
products and building and labeling boxes for a local company, whose
management described him as a highly productive employee with no
performance issues. As a result, the DDS denied the claim.




                                                                                    Significant Activities
          10                       SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                                         In St. Louis our CDI team investigated a man who filed for
                                         disability benefits, alleging that he couldn’t keep a regular job
                                         because he was unable to sit, stand, walk, or bend for any
                                         length of time. He claimed he had no strength in his arms and
                                         legs, that he couldn’t sit to drive and didn’t own a vehicle.
                         However, the CDI unit found he was operating a tour bus company under his
                         girlfriend’s name. A CDI investigator, posing as a potential customer, went to
                         the business and found three buses parked there. An employee told the
                         investigator the man was a driver and co-owner of the bus company, and gave
                         him a brochure outlining upcoming tours. Our investigators watched the man
                         drive one of the buses, helping bus passengers disembark, and walking around
                         the parking lot talking on a cell phone without difficulty. He had no apparent
                         limp, his gait was normal, and he was able to maneuver the large bus with
                         ease on the busy parking lot. The man's claim was denied.

                                         The Tampa CDI Unit investigated a Florida man who had
                                         received disability benefits from 1996 to 2001. He had
                                         concealed his work activity and represented to SSA repeatedly
                                         that he was neither employed nor able to work. Our
                                         investigation disclosed that the man worked full time for the
                         past five years. He was incarcerated and ordered to pay $30,188 restitution to
                         SSA.


                         False Statements and Misleading Advertising
                         OCCIG administers the CMP enforcement statutes under a delegation of
                         authority from SSA’s Commissioner, which allows OIG to impose CMPs against
                         violators of sections 1129 and 1140 of the Social Security Act. Based on this
                         delegation, we drafted and published regulations, trained legal and
                         investigative staff and established an infrastructure that included placing
                         attorneys in several OI Field Divisions to support this successful enforcement
                         program.

                         False Statements Section 1129

                         Section 1129 prohibits making false statements or representations of material
                         facts in connection with obtaining or retaining benefits or payments under
                         titles II or XVI of the Act. After consultation with DOJ, we are authorized to
                         impose penalties of up to $5,000 for each false statement or representation,
                         as well as an assessment of up to twice the amount of any resulting
                         overpayment.

                         Our enforcement efforts have been enhanced as our investigative organization
                         matures. Using our CMP enforcement tools, we have imposed over $2 million
                         in penalties since FY 1998 and Congress continues to introduce new legislation
                         that would expand CMP authority.

                         The following table and cases highlight our accomplishments for this reporting
                         period.




Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                         11


False Statements Case Highlights

            An SSI recipient told SSA his only asset was a 1986 Ford worth
            $500. However, our investigation showed he and his wife held
            funds of over $10,000, on which he failed to disclose the interest
            received. His false statements netted him over $9,000 in SSI for
which he was not eligible. We were able to impose a CMP and assessment of
$19,443.

               A Baltimore woman applied for disability benefits in 1995 stating
               that she could not work due to multiple medical disorders. Her
               claim was denied and she filed an appeal. Our investigation
               revealed that during her initial application and appeal, she made
five false statements. We entered into a settlement agreement with her in
which she admitted liability and is paying a $10,000 CMP.

              We imposed a $20,000 CMP against a man who had made three
              false statements regarding his work activity and one
              misrepresentation regarding his living expenses to SSA in order
              to receive SSI benefits. He started to receive SSI benefits in
1994 for a mental impairment, but became a taxi cab driver in 1996.
Additionally, he was a shareholder in the cab company.

False Statements Section 1129 Statistics
                          10/01/01              04/01/02
                           Through               Through
                          03/31/02              09/30/02             Totals

Cases Referred From                     56                  45                101
 Office of
  Investigations

CMP Cases Initiated                     36                  47                 83

CMP Cases Closed                        77                  57                134

Penalties and                     $392,385            $664,814        $1,057,199
  Assessments

Number of Hearings                       4                   4                 8
  Requested


Misleading Advertising Section 1140

Section 1140 prohibits the use of SSA’s program words, letters, symbols,
or emblems in advertisements or other communications in a manner that
falsely conveys SSA’s approval, endorsement, or authorization. Each
misleading communication is subject to a maximum $5,000 penalty.

Our nationwide enforcement efforts in this area are sending a clear
message to those companies who deceive senior citizens under the name
and reputation of Social Security. We report our accomplishments of this
reporting period and briefly describe two of our many successful cases
below.




                                                                                    Significant Activities
          12                        SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Misleading Advertising Case Highlights

                                        A Texas company was sending deceptive SSA-related mailings
                                        designed to develop insurance leads. These mailings violated
                                        Section 1140 of the Social Security Act by, among other things,
                                        using the phrase “Social Security Benefits Update” on the outside
                         of the solicitation. This language led many elderly recipients of the mailings to
                         conclude that the company was affiliated with, or approved, endorsed or
                         authorized by, SSA. On April 9, 2002, we reached a settlement with the
                         company in which it agreed to cease violating Section 1140 and agreed to pay
                         a $25,000 penalty for its past violations.

                                       Working with the U.S. Attorney's Office, we were successful in
                                       obtaining a temporary restraining order against another Texas
                                       corporation and its principals to stop the mailing of misleading
                                       advertisements to seniors. The mailings, which
                         were commissioned by insurance companies, and designed so that they
                         appeared to be from or authorized by SSA, requested that seniors send the
                         company personal information. The information was then turned over to the
                         insurance company client, which would solicit the seniors. Many seniors did not
                         realize what had happened until an insurance salesperson, rather than an SSA
                         employee, showed up at their home. Under the temporary restraining order,
                         no further solicitations may be mailed and we are screening the company's
                         incoming mail. The defendants are also limited in their ability to expend
                         personal and business funds so they remain available to pay any penalties that
                         may be imposed.

                         Misleading Advertising Section 1140 Statistics
                                                      10/01/01           04/01/02           04/01/02
                                                       Through            Through            Through
                                                      03/31/02           09/30/02           09/30/02

                         Complaints Received                     32                 88                 120

                         New Cases Opened                        14                 19                 33

                         Cases Closed                             5                 15                 20

                            No Violation                          4                 10                 14
                            Voluntary Compliance                  0                  4                  4

                            Settlement Agreement         1/$115,000           1/$25,000        2/$140,000
                              (of cases/amount)

                           Penalty/Court Action                   0                  0                  0
                             (of cases/amount)

                           Number of Hearings                     1                  1                  2
                             Requested



                         Partnership with U.S. Attorneys
                         OCCIG continues to expand its partnership efforts with Offices of United States
                         Attorneys in support of our investigative efforts. During this reporting period,
                         OCCIG expanded its efforts to assist OI in obtaining criminal prosecutions by
                         appointing two new Special Assistant United States Attorneys (SAUSA), in the
                         Western District of Tennessee and the District of Connecticut. These two new



Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                           13



SAUSAs, whose prosecutive efforts are in addition to their day-to-day duties
representing and advising the IG, bring to four the number of Districts in
which we have attorneys prosecuting OIG investigative subjects, together with
the District of Arizona and the Central District of California.

We will continue to explore the feasibility of these partnerships in other areas
of the country in support of OI’s investigative efforts and in furtherance of the
IG’s statutory mission.

An OCCIG attorney appointed last year as a SAUSA, having prosecuted several
individuals with suspected connections to terrorism for misuse of an SSN, was
asked by the Executive Office of United States Attorneys to prepare a
memorandum on the use of the Social Security Act's felony SSN misuse
provision in the overall homeland security effort. The memorandum was
distributed to all United States Attorneys, the chiefs of their criminal divisions,
and anti-terrorism coordinators nationwide, and ultimately expanded into an
article published in the United States Attorney Bulletin. He has since lectured
at the National Advocacy Center, and continues to respond to requests from
around the country on this and related issues.


Investigative Accomplishments
The following tables represent the collective efforts of our OI headquarters and
field divisions, including the SSA OIG Fraud Hotline. Overall for this reporting
period, OI received 125,970 allegations received via telephone,
correspondence, fax, or email. Our Hotline as well as our OI
Field Divisions receive allegations from a variety of sources
that cut across SSA programs as shown below. In addition,
during this reporting period, our Fraud Hotline referrals to
SSA offices resulted in the identification of over $3,500,000
in overpayments that were posted to SSA records. These
referrals frequently resulted in the suspension of benefits to
individuals who were no longer entitled or eligible to receive
these benefits.




                                                                                      Significant Activities
          14                           SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Funds Reported
                                                October 1, 2001 through March       April 1, 2002 through September
                                                           31, 2002                             30, 2002

                                                     SSA Funds    Non-SSA Funds           SSA Funds            Non-SSA
                                                                              *                                 Funds*

                         Scheduled                  $15,225,457        $597,295         $14,208,568          $2,329,560
                           Recoveries

                         Fines                        $366,101         $522,034            $350,844           $601,493
                         Settlements/                 $475,304           $1,100             $99,250            $26,250
                           Judgments

                         Restitution                $10,299,282     $19,457,103          $7,769,141         $24,857,440
                         Estimated                 $136,014,124     $19,884,597        $184,167,921         $30,529,922
                           Savings

                         TOTALS                   $162,380,268     $40,462,129       $206,595,724          $58,344,665
                         GRAND TOTALS                             $202,842,397                            $264,940,389

                         FY 2002 TOTAL                                    $467,782,786


                         Investigative Statistics
                                                                                     April 1, 2002
                                                             October 1, 2001           through
                                                                 through            September 30,           FY 2002
                                                             March 31, 2002              2002             Grand Totals

                         Allegations Received                           56,146                 69,824           125,970

                         Cases Opened                                    7,151                  9,188            16,339

                         Cases Closed                                    4,950                  6,769            11,719

                         Arrests/Indictments                             1,837                  2,131             3,968

                         Total Judicial Outcomes                         2,847                 4,468             7,315

                           Criminal Convictions                            739                   850              1,589

                           Civil/CMP                                           33                    37             70

                           Illegal Alien Apprehensions                     103                   241               344

                           Fugitive Felon Apprehensions                  1,972                  3,340             5,312




Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                               15



Allegations Received by Category
                                      FY 2002

SSN                                              73,765
SSI Disability                                   26,156

Disability Insurance                             16,397

Old Age and Survivors Insurance                   5,718
Other                                             3,045

SSI Aged                                            390

Employee                                            499
TOTAL                                           125,970


Allegations Received by Source
                                      FY 2002

Private Citizens                                 70,479

Anonymous                                        20,801

SSA Employees                                    14,132

Law Enforcement                                  15,668

Public Agencies                                   2,864

Beneficiaries                                     1,974

Other                                                52

TOTAL                                           125,970




                                                          Significant Activities
         16                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Significant Management Issues Facing SSA
                        Each year we assess the most significant management issues facing SSA. This
                        process is valuable in focusing congressional attention on mission-critical
                        management problems and serves as a catalyst for resolving significant issues
                        across the agency. These management issues are based upon discussions we
                        have with SSA. We acknowledge the progress SSA has made in each of the
                        areas.

                        Based on legislative mandates and our audit and investigative work, we
                        determined that the 10 most significant management issues facing SSA in FY
                        2002 were

                          1. Fraud Risk
                          2. Improper Payments
                          3. Systems Security and Controls
                          4. Service Delivery
                          5. Human Capital
                          6. Performance, Management, and Data Reliability
                          7. Management of the Disability Process
                          8. Integrity of the Earnings Reporting Process
                          9. SSN Misuse and Privacy Concerns (Identity Theft)
                        10. Integrity of the Representative Payee Program

                        In the following pages, we discuss each of these critical management issues
                        and our related audit and investigative work for this reporting period.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             17



Issue 1: Fraud Risk
SSA’s payments to beneficiaries are approaching half a trillion dollars annually,
and its exposure to fraud has increased proportionately. Many unscrupulous
individuals target SSA’s programs for their own personal gain. Through a wide
range of activities, OIG employees actively fight fraud in the Supplemental
Security Income (SSI) program, Old-Age, Survivors and Disability Insurance
(OASDI) programs, SSN integrity area, as well as the SSA employee fraud
area.

Fraud is an inherent risk within all of SSA’s core business processes—
enumeration, earnings, claims and post-entitlement—as they each
contain vulnerabilities that provide people the opportunity to defraud
third parties, SSA, and/or its beneficiaries and recipients. Our focus on
fraud risk is based on program eligibility factors that are misrepresented
to attain or maintain eligibility. Other problems include the detection of
beneficiary deaths and the monitoring of medical improvements for
disabled beneficiaries.

If SSA is to succeed as a steward of public dollars, it must establish a
baseline from which to estimate potential dollars lost to fraud. This issue
area focuses on a subset of the overall fraud universe, specifically, on
payments made to deceased individuals, Operation “Vulture Sweep,” SSA
employee fraud, and fraud-related reviews. For information on SSN
integrity, identity theft, and related SSN misuse fraud, please see Issue
9. Additional OIG fraud prevention efforts are discussed in our Significant
Activities section of this report.


Payments Made to Deceased Individuals
OIG, in conjunction with SSA, has taken aggressive action to stop erroneous
payments to deceased individuals. This includes front-end detection of these
improper payments, controls to prevent such payments, and detailed
investigations to locate wrongdoers when the system breaks down. We believe
that paying the right person the right amount of benefits is paramount.
Payments made to deceased individuals undermine public trust and confidence
in SSA’s programs. In this area, we are currently conducting a national
operation, as well as other investigative and audit activities as described
below.

BIC “D” Project

Our BIC “D” Project is a national operation that focuses on deceased auxiliary
Social Security beneficiaries who are in current payment status, even though
the date of death has been posted in SSA’s records. The project name signifies
Beneficiary Identification Code “D” for widows and widowers.

The project originated in 2001 when one of our investigators identified a
potential problem in SSA death records. Based on this information, our
investigators and auditors conducted a pilot project during which they
identified all current BIC “D” beneficiaries residing in the New England Region
with a date of death posted to SSA’s Numident, a history file that contains
information on all valid SSN applications since 1936. Overall, the pilot project



                                                                    Significant Management Issues Facing SSA
         18                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        resulted in the identification of 29 deceased individuals who were overpaid
                        more than $700,000.

                        Following the success of the pilot project, OI launched a national BIC “D”
                        operation. OI identified 2,934 subjects who were considered likely to be
                        deceased and in current pay status based on a records match of SSA’s
                        payment records against its Numident files. Our investigators are continuing
                        their work with SSA FOs to verify the deaths, take administrative action, and
                        open investigations, if appropriate. If the beneficiary is alive, our investigators
                        notify the local SSA FO that the Numident record is in error.

                        In FY 2002, OI opened 1,481 cases and identified over $22.9 million in fraud
                        loss, over $15.9 million in scheduled recoveries, and over $29.5 million in
                        projected savings. Our BIC “D” Project has resulted in recouping significant
                        amounts of wrongly paid benefits, through a number of investigative cases,
                        such as the following.

                                       Our Philadelphia Field Division investigated a woman who
                                       received SSA and Office of Personnel Management (OPM)
                                       benefit payments that continued to be direct deposited in her
                                       mother's name into two separate bank accounts she had jointly
                                       owned with her mother, who died in 1992.She was incarcerated
                        and ordered to pay full restitution totaling $139,202, including $24,723 to SSA
                        and $114,479 to OPM.

                                           Our Chicago Field Division investigated an SSA beneficiary's
                                           son who continued to endorse his mother’s Social Security
                                           benefit checks totaling more than $178,000 after her death. He
                                           was incarcerated and ordered to make full restitution to SSA.



                        Medicare Non-Usage

                        The Medicare Non-Usage Project is an SSA anti-fraud initiative which is also
                        designed to identify unreported deaths. SSA receives data from the Centers for
                        Medicare and Medicaid Services identifying SSA beneficiaries who are 96 years
                        old or older and have not used Medicare within 3 years. SSA FO employees
                        attempt to contact the identified beneficiaries. If during the review, SSA
                        determines that the case is suspicious, the FO refers the case to us for
                        investigation.

                        During this reporting period, OI opened 95 cases and identified $2,190,612 in
                        fraud losses as a result of this project. The Medicare Non-Usage Project has
                        also resulted in savings, restitution, and recoveries of $1,941,247.

                        The following cases highlight our efforts under the Medicare Non-Usage
                        Project.

                                           Based on a referral by the Dallas Fair Park SSA Office, our
                                           Dallas Field Division investigated a woman SSA suspected of
                                           wrongly receiving $152,732 in benefits. The investigation
                                           revealed that the woman had been forging her deceased
                                           mother’s benefits checks since 1982. As a result of our


Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             19



investigation, she was ordered to pay full restitution, of which $142,536 is to
be paid to SSA and $10,196 paid to Bank One.

               Our Atlanta Field Division investigated a man who continued to
               use his grandmother’s Social Security benefits after her death.
               After her death in September 1988, her SSA benefits continued
               to be direct deposited into her account and the man withdrew
               the funds from the account. He was incarcerated and was
ordered to pay SSA restitution of $86,405.


Operation “Vulture Sweep”
The ongoing World Trade Center (WTC) Fraud Task Force investigation, called
“Vulture Sweep,” has charged 23 people with falsely filing for death certificates       OIG remains
claiming that members of their family died in the attacks on the WTC on                 vigilant, because
September 11, 2001. Of those charged, 15 actually received funds totaling               a few corrupt
$760,465 from the American Red Cross, Safe Horizon, and SSA. Four claims                employees can
involved Social Security benefits totaling approximately $20,000. The                   compromise the
Manhattan District Attorney has said that the multi-agency investigation, of            integrity of the
which our New York Field Division was an active partner, “showed that con               Social Security
artists from New York and around the Nation took advantage of the country's             system and
generosity after the attacks on the WTC. This outrageous conduct will be met            undermine the
with the full force of the law.”                                                        public’s
                                                                                        confidence in
The following cases illustrate the types of acts that occurred.                         SSA’s programs.

                A mother claimed that her daughter, who is alive and was in
                Puerto Rico on that day, had died at the WTC. The woman
                received $5,375 in Social Security benefits because she alleged
                she was the representative payee for her daughter's children,
                and she also received $16,500 from the Red Cross. The
investigation revealed that the woman was not caring for her grandchildren at
any time and consequently, she was incarcerated.

              Another woman alleged that her brother died in the WTC
              collapse while cashing a lottery ticket. She received $16,381
              from the Red Cross and Safe Horizon. The investigation
              revealed that the brother, an SSA disability recipient, was in
              fact alive in a long-term care facility where he has lived for
many years. She pleaded guilty and was incarcerated.

SSA Employee Fraud

Although the vast majority of SSA’s over 60,000 employees are trustworthy
and dedicated civil servants, OIG remains vigilant, because a few corrupt
employees can compromise the integrity of the Social Security system and
undermine the public’s confidence in SSA’s programs. Due to the potential for
widespread abuse, the detection of employee fraud is an investigative priority,
although it comprises the fewest number of allegations and cases.

During this reporting period, we opened 126 new employee investigations,
closed 110 employee investigations, arrested 14 employees, secured




                                                                    Significant Management Issues Facing SSA
         20                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        indictments of 25 employees, and participated in 26 judicial actions that
                        resulted in the conviction of SSA employees.

                        SSA Employee Fraud Cases

                                        In early February of 1997, an SSA service representative in
                                        Houston began taking money to fraudulently issue Social
                                        Security cards to over 2,000 illegal aliens. Over 2,700 SSN
                                        applications were seized in the employee's home. She resigned
                                        during the investigation by our Dallas Field Division, pleaded
                        guilty to charges, and was incarcerated and fined $3,000.

                                       Three SSA employees conspired with a non-employee to issue
                                       Social Security cards fraudulently to approximately 150 illegal
                                       aliens, who paid from $1,500 to $2,000 per card. All the
                                       conspirators pleaded guilty to charges of conspiracy and
                                       bribery. The three employees lost their jobs and were
                        incarcerated. The fourth co-conspirator was incarcerated and ordered to pay
                        SSA $106,000.

                                        An audit performed by SSA’s Integrity Staff in New York led our
                                        New York Field Division to investigate an SSA benefit authorizer
                                        who had diverted $129,450 of SSA funds into various bank
                                        accounts. The employee got a co-conspirator to find four other
                                        people who agreed to receive SSA payments into their bank
                        accounts. The six were arrested, and the employee was incarcerated and
                        resigned from his position at SSA. In addition, he was ordered to pay full
                        restitution to SSA; his co-conspirators received sentences that included home
                        detention, probation, and paying restitution.

                        During this reporting period, we completed the following reviews.

                        Controls to Prevent SSI Payments to Recipients Living in Foreign
                        Countries

                        Our objective was to determine whether specific SSA controls were effective in
                        preventing SSI payments from being made to recipients living in a foreign
                        country.

                        Although SSA has controls in place to prevent SSI payments to beneficiaries
                        who have addresses outside the United States, further improvements could be
                        made to enhance SSA’s efforts in this area. Specifically, SSA’s automated
                        controls and special projects did not identify SSI recipients who had their
                        payments direct-deposited into banks in Puerto Rico and the Virgin Islands.
                        Also, SSA did not have a control in place to identify concurrent beneficiaries
                        who had their OASDI benefits direct-deposited into a bank outside the United
                        States, even though both their OASDI and SSI payment records showed
                        addresses in the United States.

                        During our audit, we identified 64 recipients who inappropriately received
                        approximately $106,765 in SSI payments while outside the United States. We
                        also identified 42 SSI recipients who may have received $230,574 in SSI
                        payments while outside the United States. However, as of September 2002,
                        these 42 cases were still under investigation by either our Office of


Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           21



Investigations and/or SSA FO staff. Therefore, the actual amount of improper
payments is not yet known.

Additionally, although we found that SSA’s automated control alerted FO staff
to investigate concurrent beneficiaries who had addresses outside the United
States on their OASDI records. Not all of these alerts were worked on a timely
basis. We identified 15 cases which had unresolved foreign address alerts on
their SSI payment records prior to January 2002. These alerts should have
been resolved between September 1998 and December 2001.

While we recognize that the errors identified during our audit are a small
percentage of the total payments SSA makes to SSI recipients, we believe that
this area still needs management attention. Since the SSI program has been
designated by the General Accounting Office as a high-risk area, every effort
should be made to discontinue payments as soon as possible to recipients who
are no longer eligible for them – including those who are paid SSI
inappropriately while outside the United States.

To improve its controls in this area without expending significant agency
resources, we recommended that SSA

 1. Modify its alert process to investigate when
     SSI payments are direct-deposited to banks in Puerto Rico and the
       Virgin Islands, or
     concurrent beneficiaries have their OASDI benefits
       direct-deposited into banks outside the United States.
 2. Remind staff to resolve foreign address alerts in a timely
    manner.

SSA agreed with the intent of recommendation one, but
requested that we perform further analysis of the return on
investment. SSA agreed with recommendation two.




                                                                  Significant Management Issues Facing SSA
         22                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Issue 2: Improper Payments
                        SSA is responsible for issuing benefit payments under the Old-Age and
                        Survivors Insurance (OASI), Disability Insurance (Dl) and SSI programs. In FY
                        2001, SSA issued $456 billion in benefit payments to 52.4 million
                        beneficiaries. Considering the volume and amount of payments SSA makes
                        each month, even the slightest error in the overall process can result in
                        millions of dollars in overpayments or underpayments. Both OIG and the Office
                        of Management and Budget (OMB) have identified erroneous payments as a
                        key concern.

                        Improper payments are payments that should not have been made or that
                        were made for incorrect amounts. Examples of improper payments include
                        inadvertent errors, payments for unsupported or inadequately supported
                        claims, payments for services not rendered, or payments to ineligible
                        beneficiaries. The risk of improper payments increases in programs with
                        (1) a significant volume of transactions, (2) complex criteria for computing
                        payments, and/or (3) an overemphasis on expediting payments. Because SSA
                        is responsible for issuing timely benefit payments for complex entitlement
                        programs to 50 million individuals, SSA is at risk of making significant
                        improper payments.

                                                  “Working together with SSA,” Inspector General
                                                  Huse told the House Ways and Means Committee’s
                                                  Subcommittee on Social Security in a hearing on
                                                  May 2, “we have made great strides in reducing all
                                                  benefit payments to prisoners and SSI payments to
                                                  fugitive felons over the past several years, and
                                                  those efforts continue. But erroneous payments,
                                                  including those to deceased beneficiaries,
                                                  students, and individuals receiving state workers’
                        compensation benefits, continue to drain the Social Security Trust Fund even
                        as solvency becomes an overarching issue.” OIG has made numerous
                        recommendations, many of which SSA has adopted.

                        Each year, SSA reports payment accuracy rates for its OASI and SSl programs,
                        as well as the amount of actual overpayments that are identified. SSA bases
                        its payment accuracy rate on a detailed analysis of a sample of cases.
                        However, while this analysis is more extensive than SSA’s normal processes, it
                        still relies on beneficiary self-reporting events that can affect eligibility or
                        payment amounts.

                        SSA's payment accuracy review does not include the medical factors that
                        affect benefit eligibility. Further, the review does not count all types of
                        improper payments as “inaccurate” for purposes of payment accuracy. For
                        example, payments made after a beneficiary’s death are not counted as
                        “inaccurate” during the review.

                        As a result, SSA’s payment accuracy rates do not reflect the total improper
                        payments that occur in SSA’s programs. A key reason for actual overpayments
                        to be higher than expected is that once the accuracy rate is determined, SSA
                        learns of beneficiary circumstances affecting program eligibility that it did not
                        know prior to the case accuracy review. The lack of correspondence between



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                          23



SSA’s accuracy rates and actual overpayments is clearly demonstrated by
comparing SSA’s payment accuracy rate for FY 2000 to actual overpayment for
FY 2000. Multiplying the payment accuracy rate against total OASI payments
produced only $140 million in overpayments for the OASI program. However,
actual OASI overpayments identified and reported in SSA’s audited financial
statements were $1.47 billion.

The OIG and SSA have differing interpretations of the term improper
payments. SSA’s payment accuracy rate does not count all types of improper
payments as “errors.” Specifically, SSA does not include (1) payments made
after a beneficiary’s death; (2) overpayments resulting from disability
cessations where SSA is required to continue payments during the appeals
process; (3) cases in which individuals who allege non-receipt of a payment
cash both the original and replacement checks; or (4) overpayments occurring
due to the Annual Earnings Test.

SSA and OIG agreed in October 2002 to meet with OMB to try to reach
agreement on all items/events to be classified as improper payments. Further,
if legislation such as H.R. 4878, the “Improper Payments Reduction Act of
2002,” is enacted into law, the guidance from OMB under such legislation
should resolve these differences.

During this reporting period, we conducted the following audits involving
improper payments.

SSA Can Recover Millions in Medicare Premiums Related to Retirement
or Disability Payments Made after Death

Our objective was to determine whether SSA recovered Medicare premiums
withheld from retirement or disability payments made after a beneficiary’s
death and remitted to the Centers for Medicare and Medicaid Services (CMS).
When SSA does not receive timely notification of a beneficiary's death, it may
issue benefits for one or more months and continue to forward Medicare
premiums to CMS.

We concluded that if SSA does not take a proactive role in recovering Medicare
premiums paid after beneficiaries’ deaths, the Social Security Trust Fund will
lose millions of dollars in the future. We believe SSA should expeditiously
implement an automated process whereby SSA can systematically and
routinely recover Medicare premiums remitted to CMS after a beneficiary’s
death. To accomplish this, we recommended that SSA

 Establish a committee of SSA and CMS officials to discuss procedures and
  practices for recovering Medicare premiums and work toward a joint
  resolution of the issue.
 Develop and implement an automated process to ensure that SSA
  systematically and routinely recovers Medicare premiums remitted to CMS
  after a beneficiary’s death.
 Calculate the amount of unrecovered Medicare premiums SSA has withheld
  from deceased beneficiaries and remitted to CMS, going back as far as data
  are available to determine this amount.




                                                                 Significant Management Issues Facing SSA
         24                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Analyze the practicality and feasibility of CMS transferring the unrecovered
                          Medicare premiums to SSA.

                        SSA agreed with our recommendations and provided information on actions
                        planned that addressed implementation.

                        Management Advisory Report: SSA Employees With Title XVI
                        Overpayment Write-offs

                        We conducted our review to determine whether SSA identified and properly
                        resolved its employees’ title XVI write-offs from overpayment debts.
                        Additionally, we determined whether SSA should implement additional controls
                        to prevent SSA employees from avoiding their Federal debt obligations.

                        From a data file of title XVI overpayments written off from October 1992 to
                        February 2000, we identified 532 write-offs totaling $291,998 belonging to
                        308 current and past SSA employees. These write-offs occurred before,
                        during, and after SSA employment. We reported that SSA could have identified
                        the outstanding debts and prevented additional debt if it had taken
                        appropriate steps during the employment process. Additionally, SSA could
                        have used its employer status to collect the outstanding debts that were
                        previously written off, and could have prevented other overpayments and
                        subsequent write-offs if it had considered the impact of future SSA wages on
                        current benefits paid to new employees. Finally, by participating in the annual
                        Governmentwide employee match to identify Federal employees indebted to
                        SSA, the agency could have had an added opportunity to identify both SSA and
                        other Federal employees with delinquent SSA debts.

                        We recommended that SSA

                          1. Match program overpayments against a list of SSA employees to identify
                             current and former employees indebted to SSA, and enter into realistic
                             repayment agreements with current and former employees, and use all
                             available collection options.
                          2. Ensure that employees with repayment agreements remain in compli-
                             ance, and take the necessary action for collection if the employees are not
                             in compliance or refuse to enter into an agreement.
                          3. Review the SSI Record and the Master Beneficiary Record (MBR) for each
                             new employee to identify any delinquent program debt, compare that
                             information with statements made on the Declaration for Federal Employ-
                             ment, and determine whether a prospective employee is receiving title
                             XVI or title II benefits to minimize or prevent potential overpayments due
                             to future SSA wages.
                          4. Ensure that new employees with existing program debt or who are receiv-
                             ing benefits enter into realistic repayment agreements, and adjust con-
                             tinuing benefit payments to prevent future overpayments due to SSA
                             wages.
                          5. Periodically match a list of active SSA employees against current title XVI
                             and title II benefit payments to identify individuals who may have quali-
                             fied for benefits while employed with SSA, and ensure that SSA wages
                             were considered when the benefit payments were calculated.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           25



 6. Implement the match with the Department of the Treasury to identify all
    Federal employees who may owe SSA title XVI or title II overpayment
    debt and engage in authorized collection procedures.

SSA agreed with our overall recommendations. With regard to implementation
of recommendations one and five, SSA stated that further information is
needed to determine the benefits of computer matches to identify current and
former employees with Federal debt obligations. SSA also stated that
additional resources are needed to implement recommendations two and six
related to Federal salary offset systems development.

Effectiveness of SSA’s Death Termination Process

Our objective was to evaluate the effectiveness of SSA’s controls and
procedures for resolving death alerts and recovering payments after the death
of a beneficiary, and the timeliness of death reporting by State agencies.

Based on a random sample of 200 death alerts from July to December 1999,
we found that SSA disbursed $216,327 in payments after the death of the
beneficiaries. From this sample, we estimated that SSA disbursed about
$142.4 million in payments after death in Calendar Year 1999 and that SSA
had not recovered about $5.4 million as of March 2002.

We recommended that SSA

 1. Modify its automated systems to support the electronic death registration
    (EDR) process, including the on-line verification of SSNs, processing of
    verified and unverified State death reports, and termination of benefits
    upon receipt of verified State death reports.
 2. Encourage State bureau of vital statistics agencies to develop and imple-
    ment EDR systems.
 3. Work with other Federal and State agencies to obtain additional funding
    for EDR.
 4. Issue a memorandum to reiterate that FOs should process death alerts as
    expeditiously as possible to minimize improper payments to deceased
    beneficiaries.
 5. Evaluate the feasibility of systems modifications to simultaneously issue
    the “come-in” letter to the beneficiary when the death alert is sent to the
    FO, and automatically suspend benefits if the beneficiary does not
    respond.
 6. Issue a memorandum to reiterate that processing centers (PC) should fol-
    low up on the status of reclamation actions with Treasury to ensure that
    payments after death are recovered.
 7. Encourage PCs to maximize the use of debt collection tools available to
    SSA to recover payments after the death of a beneficiary.

SSA agreed with six of the seven recommendations. Specifically, SSA agreed
to obtain systems support for EDR and stated that full implementation is
scheduled for September 2003. SSA is working with the National Association
for Public Health Statistics and Information Systems to develop and implement
EDR systems and plans to award additional contracts to States in



                                                                  Significant Management Issues Facing SSA
         26                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        September 2002. In addition, SSA is working with the National Centers for
                        Health Statistics to obtain sources of funding for EDR. SSA agreed to issue a
                        memorandum by September 2002 to remind its employees to process all
                        death alerts in a timely manner and follow up on reclamation actions with
                        Treasury to ensure that payments after death are recovered.

                        SSA also agreed that debt collection tools should be used to the extent
                        possible. Furthermore, SSA initiated an information technology project to
                        facilitate the use of authorized debt collection tools available to SSA. However,
                        SSA disagreed with recommendation five because it believes that the
                        corrective actions for the other recommendations should address the concerns
                        raised in this recommendation. Although EDR may provide a solution for the
                        long term, we believe SSA should evaluate other alternatives for the short
                        term. Therefore, we encourage SSA to reassess the feasibility of systems
                        modifications to further automate the death reporting process.

                        Impact on SSA’s Programs When Auxiliary Beneficiaries Do Not Have
                        Their Own SSNs

                        Our objective was to determine the impact on SSA’s programs when auxiliary
                        beneficiaries do not have their own SSNs on the MBR. SSA commonly refers to
                        the auxiliary beneficiary’s SSN as the Beneficiary's Own Account Number
                        (BOAN).

                        In November 1988, P.L. 100-647 amended the Social Security Act to require
                        that, as of June 1, 1989, an individual must present satisfactory proof of an
                        SSN before receiving any Social Security benefits. To comply with this law, SSA
                        established the missing BOAN alert process to detect when an auxiliary
                        beneficiary’s SSN is missing on the MBR.

                        We identified 126,471 auxiliary beneficiaries receiving benefits as of August
                        2001 whose SSNs were missing from the MBR. Also, 10,264 of the 126,471
                        auxiliary beneficiaries (8 percent) became entitled to title II benefits after
                        enactment of P.L. 100-647. We identified possible SSNs for 61,195
                        beneficiaries’ records and estimated that $7.67 million in Social Security funds
                        were incorrectly paid because SSNs were not on the MBR. We were unable to
                        locate possible SSNs or analyze 52 percent of the 126,471 beneficiaries in our
                        audit population, but expect results for the remaining 52 percent will show
                        additional overpayments.

                        We recommended that SSA

                          1. Add the SSNs to the MBRs for the auxiliary beneficiaries currently receiv-
                             ing benefit payments.
                          2. Modify its missing BOAN alert process to include auxiliary beneficiaries
                             who became entitled to benefits prior to June 1989.
                          3. Generate reports of auxiliary beneficiaries with missing BOAN alerts that
                             have not been cleared timely to a higher level of management.
                          4. Review the remaining 702 auxiliary beneficiaries identified by an earnings
                             match to adjust their payments as needed.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           27



SSA generally agreed with three of our four recommendations. However, SSA
did not agree with recommendation two. Specifically, while SSA agreed that
the addition of missing SSNs for auxiliary beneficiaries will facilitate SSA’s
matching process and reduce erroneous payments, SSA did not agree to
modify its missing BOAN alert process. SSA stated that it is not required to
obtain SSNs for individuals entitled before June 1989 and it believes the issue
can be addressed through additional policy instructions to its staff.

We believe our report demonstrates the need for SSA to modify its missing
BOAN alert process to include auxiliary beneficiaries who became entitled
before June 1989, and we urge SSA to implement our recommendation. We
believe SSA will continue to make improper payments to these individuals until
SSNs are added to the MBR. To ensure that SSNs are added to these records,
SSA should issue missing BOAN alerts.




                                                                  Significant Management Issues Facing SSA
         28                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Issue 3: Systems Security and Controls
                         As the world’s reliance on technology grows, the need for a strong information
                         infrastructure is magnified. Protection of critical information and infrastructure
                         is an issue that is significant not only to SSA, but to the entire Government.
                         Presidential Decision Directive (PDD) 63, issued in 1999, requires Federal
                         agencies to identify and protect their critical infrastructure and assets. As SSA
                         increases its dependence on technology to meet the challenges of
                         ever-increasing workloads, a secure agency information infrastructure is an
                         essential requirement. The information SSA has been assigned to use to
                         complete its mission is one of its most valuable assets.

                         Inspector General Huse told the House Ways and Means Committee’s
                         Subcommittee on Social Security at its May 2 hearing that SSA needs to
                         confront issues of systems security. “Our own audit work,” he said, “as well as
                         audit work conducted by outside sources, has recognized SSA’s efforts to
                         provide for systems security, but has also revealed systems security
                         weaknesses that still threaten both the sensitive data SSA stores and the
                         business operations of the agency. SSA needs to take steps to strengthen its
                         information security framework and improve its overall critical information
                         infrastructure. As we come to rely more and more on technology, and as the
                         demand for service delivery makes online services more and more tempting, it
                         is absolutely critical that SSA’s systems be protected from cyber-fraud.”

                         Those who wish to disrupt or sabotage critical operations have more tools than
                         ever. With the explosive growth in computer interconnectivity has come the
                         risk of disrupting or sabotaging critical operations, reading or copying sensitive
                         data, and tampering with critical processes.

                         SSA addresses critical information infrastructure and systems security in
                         several ways. It created a Critical Infrastructure Protection workgroup that
                         works continually toward compliance with PDD 63. The workgroup has created
                                    several teams to address agencywide systems security matters.
                                    SSA also routinely sends out security advisories to its staff of over
                                    60,000 and has hired outside contractors to provide expertise in
                                    this area.

                                      SSA has made significant progress in addressing the information
                                      protection issues that we have raised in prior years. Even so, SSA’s
                                      systems environment is still threatened by security and integrity
                                      exposures that affect key elements of its distributed systems and
                                      networks.

                         During this reporting period, we conducted the following audit involving
                         systems security.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           29



Management Advisory Report: SSA’s Data Exchange with Other
Agencies (Limited Distribution)

Our objective was to evaluate the computer data matching agreement
process, review compliance with laws governing data matching, and determine
ways to improve the process.

We reviewed SSA’s matching agreement process and its compliance with laws
and regulations. In addition to interviewing staff and reviewing numerous
current matching agreement files and reports maintained by SSA, we selected
a sample of 22 matching agreements to test for compliance with OMB
guidance and the Computer Matching and Privacy Protection Act (CMPPA).

We found that SSA is pro-active in developing and maintaining matching
agreements, and is largely in compliance with laws and regulations concerning
matching agreements. However, we believe SSA can improve its matching
process by

 Resolving difficulties in initiating matching agreements.
 Increasing the duration of the matching agreements.
 Performing cost benefit analyses (CBA) in a timely manner.

We recommended that SSA

 1. Create a policy that requires the Office of the Commissioner to be notified
    when matching agreements are taking excessive time to implement due
    to difficulties with other agencies.
 2. Continue to work with OMB on passage of the legislative proposal to
    change or amend CMPPA to increase the duration of matching agree-
    ments.
 3. Obtain CBA updates for all matching agreements every 30 months when a
    matching agreement is renewed.

Regarding recommendation one, SSA agreed that the Commissioner should be
notified when extraordinary circumstances exist and agreements with other
agencies are taking excessive time to implement. SSA provided information on
actions taken by SSA to address implementation of recommendations two and
three. Because of the sensitive nature of this audit, we cannot describe in
detail the findings of this report. This report is not
available for distribution.

System Security Case Highlights

OI’s Critical Infrastructure Division (CID) is dedicated to
OIG’s crucial mission of fulfilling the requirements of
PDD 63 which pertains to the protection of critical SSA
systems from cyber-crimes and terrorism.

The following cases conducted during this reporting
period are an example of our successful efforts.




                                                                  Significant Management Issues Facing SSA
         30                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                                       Our Dallas Field Division, including ECT support, investigated a
                                       subject who, while employed as an SSA service representative
                                       had been bribed to fraudulently produce identification cards
                                       and make improper entries into the SSA computer
                                       system. These actions caused the improper issuance of Social
                        Security cards and related numbers to over 2,000 illegal aliens. As a result,
                        the subject was arrested, sentenced to prison, and fined $3,000.

                                        Our Philadelphia Field Division investigated an SSA service
                                        representative who processed hundreds of applications for
                                        SSNs that were completed by aliens using fraudulent or
                                        incomplete documentation, producing an average of 15 to 20
                                        questionable documents per month. She admitted performing
                        over 500 illegal enumerations and receiving a fee for each one. We identified
                        241 such fraudulent SSNs properly coded in the SSA system. Citing
                        extraordinary family circumstances of the defendant, a single parent who was
                        troubled by a high school aged daughter’s behavioral problem, a Federal judge
                        sentenced her to 12 months’ home confinement, 3 years’ probation, and a
                        $1,000 fine. She resigned from SSA.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                              31



Issue 4: Service Delivery
SSA remains committed to providing citizen-responsive, world-class service.
Many initiatives are in progress to achieve this goal, but steadily-increasing
workload demands, changing user preferences, emerging technologies, and
other factors require continual modifications to the way SSA delivers services
in the future. Providing quality service to the public is a critical management
issue facing SSA, and SSA recognizes there are several significant service
delivery problems that need attention. One is the complexity of SSA programs.
Another is that SSA’s workloads will continue to increase as “baby boomers”              Providing
reach retirement age, challenging SSA to keep pace.                                      quality service
                                                                                         to the public is
The Social Security Advisory Board has reported that the result has been, and            a critical
will continue to be, uneven service. People filing for OASDI are likely to be            management
satisfied with the service provided. However, people with complicated cases,             issue facing
such as DI or SSI, may encounter problems. As workloads increase, the                    SSA...
dimensions of SSA’s problems are expected to grow. If this is unchanged, the
public will face crowded reception areas, inadequate telephone service, long
waiting times, and reduced quality of work.

The future of SSA promises significant technological advances and exponential
expansion in workloads. This growth will occur at the same time SSA faces an
atypical wave of staff and management retirements. Even at present staffing
levels, SSA finds it challenging to maintain an acceptable level of service,
especially in its most complicated workloads. To meet the expected increases
in future public demands, SSA will need to explore new and creative ways to
deal with service delivery problems and ensure the right people get paid
accurately and expeditiously. However, increasing workloads and projected
human capital shortages will surely test SSA as it moves to strengthen and
re-energize its employee ranks while it addresses greater demands for its
services. Related human capital issues are discussed later under Issue 5.

To address the issues surrounding service delivery, our auditors issued the
following reports this period.

Case Folder Storage and Retrieval at SSA's Megasite Records Center

After receiving frequent complaints from various SSA operating components
regarding long delays in obtaining requested folders and a high rate of “lost”
folders, we evaluated SSA’s management of title II case folder storage and
retrieval at the Rolling Heights Megasite to determine the cause for folder
request processing delays and missing case folders.

The Megasite houses active title II disability folders for individuals under 55
years old. FOs, DDSs, hearing offices (HO), and program service centers (PSC)
routinely request case folders to facilitate initial and post-entitlement actions.
Since August 1998, SSA has paid a contractor over $24 million to provide all
Megasite clerical and file support involved in filing and retrieving individual
folders, filing loose documentation in folders, deactivating folders, and
maintaining the overall integrity of the folder inventory. Included in this
amount is almost $1 million SSA paid the contractor during 1998 and 1999 to
sequence and validate the Megasite folder inventory. The contractor tracks




                                                                     Significant Management Issues Facing SSA
         32                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        folder requests and movement through the Processing Center Action Control
                        System (PCACS).

                        Our audit found that most complainants could not provide concrete evidence
                        or data to support their allegations. However, one DDS did provide evidence
                        supporting a lost folder rate of approximately 20 percent. We also encountered
                        difficulty in obtaining requested folders when conducting financial and
                        performance audits. We, and our contractors, experienced unfilled folder
                        requests ranging from 7 to 52 percent. We concluded that case folder retrieval
                        remains a significant problem for FOs, DDSs, HOs, and PSCs.

                        To ensure the integrity of the inventory and the inventory system, we
                        recommended that SSA

                          1. Perform independent quality assurance (QA) reviews to ensure the integ-
                             rity of the Megasite’s folder inventory, including an assessment of the
                             contractor’s performance in accordance with the contract provisions.
                          2. Instruct the contractor to resequence and revalidate the Megasite inven-
                             tory at the contractor’s expense if, as a result of the review, SSA deter-
                             mines there are unacceptable numbers of misfiled and poorly controlled
                             folders.
                          3. To help identify existing problems in the Megasite inventory, develop, as
                             part of PCACS, an automated process to periodically identify all records in
                             which a) both a primary folder and temporary folder(s) for a beneficiary
                             are located at the Megasite; b) temporary folders exist but a primary
                             folder record is not listed in PCACS; and/or c) the beneficiary is over 55
                             years of age.

                        SSA agreed with our overall recommendations. With regard to
                        recommendation three, SSA stated that locating primary folders and
                        reinstating them into PCACS is outside the contractor’s scope of responsibility.
                        However, SSA is developing a process whereby its Megasite employees can
                        locate and reinstate primary folders into PCACS. Discussions between SSA and
                        Kansas City Caves staff are ongoing to accommodate additional shipments of
                        over age 55 folders. This will free much needed storage space at he Megasite

                        SSA’s Management of Congressional Inquiries

                        Our objective was to assess SSA’s management of congressional inquiries.

                        SSA receives numerous congressional inquiries that may be delivered to any of
                        SSA’s components (regional offices, program service centers, SSA
                        headquarters, the Office of Hearings and Appeals (OHA) and FOs).
                        Congressional inquiries address such issues as the status of disability hearings
                        and the quality of SSA services. SSA receives inquiries by mail, e-mail, fax
                        and/or telephone.

                        We determined that SSA lacked an adequate system of internal controls
                        related to its management of congressional inquiries. We found no agencywide
                        automated system for controlling, monitoring, and tracking inquiries. SSA
                        could not identify the total number of congressional inquiries it received. No
                        component was designated with the responsibility for managing congressional




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                          33



inquiries. Further, multiple components were not complying with agencywide
policies and procedures when responding to congressional inquiries.

SSA advised us that it is in the process of procuring software and support
services to implement a national system for controlling, monitoring, and
tracking correspondence. Staff stated that in FY 2000, an initiative began to
replace the Commissioner's Correspondence System. After reviewing several
options for obtaining broader management information, agency staff reported
that on February 15, 2002, SSA’s Commissioner decided to expand this
initiative to a Nationwide system.

We recommended that SSA

 1. Develop and implement an agencywide information system that incorpo-
    rates current technology to control, monitor, and track all congressional
    inquiries.
 2. Designate a single component to oversee the agencywide management of
    congressional inquiries.
 3. Develop and implement a management control process that gives reason-
    able assurance that agency congressional inquiry policies and procedures
    are followed.

SSA agreed with recommendations one and three and described actions taken
to address them. Regarding recommendation two, SSA advised us that
decisions regarding specific roles and responsibilities will be made as the
functions are fully identified and developed.




                                                                 Significant Management Issues Facing SSA
         34                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Issue 5: Human Capital
                        The General Accounting Office (GAO) has designated strategic human capital
                        management as a high-risk, Governmentwide issue requiring immediate
                        attention. This issue involves four pervasive Federal agency human capital
                        challenges:

                          1. Acquisition and development of staffs whose size, skills, and deployment
                             meet agency needs—ensuring current and future human capital needs are
                             identified and gaps are filled through such efforts as effective recruiting,
                             training, and contracting.
                          2. Leadership continuity and succession planning—ensuring there are quali-
                             fied people available to assume top leadership positions before they
                             become available.
                          3. Strategic human capital planning and organizational alignment—ensuring
                             human capital strategies support strategic and program goals so an
                             agency’s mission, vision, and objectives are realized.
                          4. Creation of results-oriented organizational cultures—ensuring staff is
                             empowered and motivated in conjunction with workplace accountability.

                        The combined effect of employee attrition and increased demand for services
                        will impose a significant challenge to SSA’s management of its human capital.
                        SSA estimates its workforce retirements will peak between 2007 and
                        2010-when about 2,500 employees will retire annually. Further, between 2000
                        and 2010, about 72 percent of SSA’s managers and senior executives, about 60
                        percent of its supervisors, about 34 percent of claims representatives, and
                        about 29 percent of SSA’s computer specialists are projected to retire.

                                      To provide the kind of service that has been SSA’s hallmark, SSA
                                      recognizes it must maintain a highly skilled, high performing, and
                                      highly motivated workforce. A key requirement is also to have the
                                      right number of staff with the correct skills. According to the SSAB
                                      in its March 2002 report SSA’s Obligation to Ensure That the
                                      Public’s Funds are Responsibly Collected and Expended, many SSA
                                      employees believed there were not enough staff to accomplish all
                                      mandated tasks. The report further noted that SSA had appointed
                                      a work group to identify workloads in FOs that are underfunded.
                                      The objective was to develop short-term tools for identifying these
                                      workloads so they would be considered when the budget is
                        formulated. SSAB also noted that this type of analysis was important to the
                        credibility and usefulness of SSA’s budget submissions.

                        Although SSA has taken initiatives to address its human capital challenge,
                        many actions still need to be refined and then successfully carried out. For
                        instance, as part of its effort to increase new hire retention, SSA began a study
                        of why new hires leave. This study was to be completed in FY 2002 and will
                        need to be analyzed to determine options SSA can take to meet its goals of
                        increasing retention rates. Similarly, SSA is relying on desktop video training as
                        an important aspect of its program to maintain a skilled workforce; however,
                        this initiative is still in prototype stage, and its success will depend on future
                        funding. SSA will need to continually monitor the effects of these actions and
                        be able to quickly respond to changing employee and client service needs.



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           35



Issue 6: Performance, Management, and Data
Reliability
To effectively meet its mission, manage its programs, and report on its
performance, SSA needs sound performance and financial data. Congress,
other external interested parties, and the general public also want sound and
credible data to monitor and evaluate SSA’s performance. SSA primarily relies
on internally generated data to manage the information it uses to administer
its programs and to report to Congress and the public.

The necessity for good internal data Governmentwide has
resulted in the passing of laws and regulations to make
Government more accountable. The Chief Financial Officers Act
of 1990 (CFO Act) and the Government Performance and Results
Act of 1993 (GPRA) were passed to create an environment of
greater accountability within Federal agencies.

President Bush has highlighted the need to improve Government
performance through the release of the President’s Management
Agenda. Within the agenda, the President calls for a Government
that is citizen-centered, results-oriented, and market-based.

The President’s call for improved Government performance compliments the
existing laws that were enacted to create an environment of greater
accountability with Federal agencies. The CFO Act and GPRA call for sound
financial and performance management through the creation and use of
reliable management information. Given the importance that good
management has on SSA’s stewardship and the services ultimately delivered
to citizens, we have placed a great amount of resources in monitoring SSA’s
financial and performance management efforts.

Much of our work in this area focuses on SSA’s implementation of the CFO Act
and GPRA. The following summarizes our work in the performance and
financial areas.


Performance Reviews
In FY 2002, we released 12 reports with the objective to determine the
reliability of the data used to measure SSA’s program performance. These
reports also addressed the quality of the performance indicators supported by
the performance data reviewed. In eight reports, we concluded that the data
reviewed was reliable. In the remaining four reports, we could not opine on the
reliability of the data since the data or documentation of the methods used to
measure SSA’s performance were not available.

Of the eight reports that found SSA’s performance data reliable, seven
evaluated the reliability of the data used to measure

 OHA Decisional accuracy.
 Employer satisfaction.
 Public knowledge of SSA.
 Anti-fraud performance


                                                                  Significant Management Issues Facing SSA
         36                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Disability claims processing
                         The timely processing of DI claims
                         The quality of SSA's research

                        While these reports concluded that the data used to measure performance in
                        the areas identified were reliable, we concluded that some indicators SSA uses
                        to measure performance in these areas and management practices could be
                        improved. For example, in our audit of the methods and data used to measure
                        Office of Hearings and Appeals Decisional Accuracy we recommended that SSA
                        document the methodology for calculating the performance measure and
                        retain that documentation to allow for the timely verification of the
                        performance measure values. Additionally, we recommended that SSA
                        document the policy whereby a Reviewing Judge (RJ) is not assigned to review
                        cases heard by Administrative Law Judges (ALJ) in the RJ’s region.

                        We also found the eighth reliable performance indicator related to SSA’s
                        transition planning, “Create Agency change strategy to instill values,” and
                        “complete Agency plan for transitioning to the workforce of the future,” to be
                        limited and not in line with the intent of GPRA. We recommended that the
                        former indicator be replaced with an indicator that would help SSA to indicate
                        the quality of the change strategy and quantify the progress made in achieving
                        that strategy over time. We also recommend that the second indicator be
                        replaced with milestones specified in the workforce transition plan, so SSA can
                        track whether it is actually creating a workforce able to serve its diverse
                        customers in the 21st century.

                        We could not opine on the reliability of the performance measures and
                        supporting data, due to a lack of the required data or documentation, in the
                        four reports evaluating

                         The reliability of the data used to measure SSI non-disability
                          redeterminations.
                         The methodology used to determine the number of hearings cases
                          processed per work year.
                         The increase in the number of disabled beneficiaries who are working.
                         The reliability of the data used to measure electronic service delivery.

                        We have generally found in this and prior years, that SSA often lacks
                        documentation of the methods and/or the data used to measure its
                        performance. We have often recommended that SSA improve the
                        documentation of the methods used to create its performance data.


                        Single Audits
                        On July 5, 1996, the President signed the Single Audit Act Amendments of
                        1996, which extended the statutory audit requirement to non-profit
                        organizations and revised various provisions of the 1984 Single Audit Act
                        including raising the dollar threshold for requiring a single audit to $300,000 in
                        Federal awards expended.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             37



As a result, OMB rescinded Circular A-128 and issued revised Circular A-133,
Audits of States, Local Governments and Non-Profit Organizations, to
implement the amendments. We review the quality of these audits, assess the
adequacy of the entity’s management of Federal funds, and report single audit
findings to SSA for audit resolution.

Summary of Single Audit Oversight Activities

SSA is responsible for the policies to develop disability claims under the DI and
SSI programs. According to Federal regulations, disability determinations
under the DI and SSI programs are performed by DDSs in each State. The
DDS determines the claimants’ disabilities and ensures adequate evidence
supports its determinations. SSA reimburses the DDS for 100 percent of
allowable expenditures.

There are 54 DDSs located in the 50 States, the District of Columbia, Puerto
Rico, Guam, and the Virgin Islands. The DDSs are subject to Single Audit
except the federally administered Virgin Islands DDS.

The objective of our review was to summarize categories of internal control
weaknesses at DDSs reported in State single audits and identified during our
October 2000 through April 2002 single audit oversight activities.

Our findings are based on 103 single audits in the following categories: cash
management, equipment and real property management, and allowable costs.
Of the 103 audits, 25 reported direct findings (specific to the DDS) and 89
audits reported crosscutting findings (not specific to the DDS, but which could
have an impact on the DDS.)

We recommended and SSA agreed to provide the following instructions to each
DDS

 Adhere to the terms of the Cash Management Improvement Act
  agreement.
 Implement controls to prevent unauthorized computer access.
 Develop a formal contingency plan to be followed in the event of a disaster
  that adversely affects operations.
 Maintain complete and accurate equipment inventory records and perform
  periodic physical inventories.
 Ensure that costs charged to SSA benefit its programs and are properly
  authorized and documented.
 Implement controls to ensure that non-SSA work costs are properly
  accounted for and reported.




                                                                    Significant Management Issues Facing SSA
         38                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Issue 7: Management of the Disability Process
                        SSA administers the DI and SSI programs, which provide benefits based on
                        disability. Most disability claims are initially processed through a network of
                        Social Security FOs and State DDSs. SSA Claims Representatives in the FOs
                        are responsible for obtaining applications for disability benefits and verifying
                        non-medical eligibility requirements, which may include age, employment,
                        marital status, or Social Security coverage information. The FO then sends the
                        case to a DDS for evaluation of disability. The DDSs, which are fully funded by
                        SSA, are State agencies responsible for developing medical evidence and
                        rendering the initial determination on whether the claimant is legally disabled
                        or blind. Once the DDS makes the disability determination, it returns the case
                        to the FO for appropriate action depending on whether the claim is allowed or
                        denied. In FY 2001, there were 2,166,623 initial disability claims processed,
                        and the average processing time was 106 days.

                        After SSA establishes that an individual is eligible for disability benefits under
                        either DI or SSI, SSA works to ensure that individuals continue to receive
                        benefits only as long as they meet SSA’s eligibility criteria. Disability benefits
                        will not continue if

                         Legislation or Federal regulations rescind a prior disabling condition from
                          qualifying for benefits.
                         A child turns 18-years-old and is no longer considered disabled under adult
                          criteria.
                         A beneficiary/recipient returns to work and has income over SSA’s
                          allowable amount.
                         Or a continuing disability review (CDR) shows the individual is no longer
                          disabled. In FY 2001, over $603 million was expended to process 1.7
                          million CDRs.

                        It is the responsibility of OHA to hold hearings and issue decisions at two
                        distinct stages in SSA’s appeals process. OHA’s field structure consists of 10
                        regional offices and 138 hearing offices. These offices are staffed by
                        approximately 1,000 ALJs and 5,400 support staff. In FY 2001, HOs received
                        554,376 appeals and disposed of 465,228 cases.

                        The Appeals Council is the final level of administrative review for claims filed
                        under DI and SSI. The Appeals Council reviews ALJ decisions and dismissals
                        upon the claimant’s timely request for review. In FY 2001, the Appeals Council
                        received 83,590 requests for review and disposed of 115,589 cases.

                        Over the last several years, SSA has tested several improvements to the
                        disability claims process as a result of concerns about the timeliness and
                        quality of service. SSA’s Disability Redesign Plan combines initiatives that have
                        been tested and piloted over the last few years and includes all levels of
                        eligibility determination—beginning with State DDSs and going through the
                        hearings and appeals processes. The Hearings Process Improvement (HPI)
                        Plan, when fully implemented, was expected to result in an overall reduction in
                        processing time and increased productivity. The focus of the Appeals Council
                        Process Improvement Action Plan is to reduce the time claimants wait for
                        action from the Appeals Council.



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             39



During this reporting period, we conducted the following reviews in this area.

Continuing Disability Reviews for SSI Recipients Approved Based on
Low Birth Weight

Our objective was to determine whether SSA conducted CDRs in a timely
manner for children whose claims for SSI payments were approved based on
low birth weight.

As of August 22, 1996, SSA was required under Public Law (P.L.) 104-193 to
perform CDRs by age 1 for children whose claims for SSI payments were
approved based on low birth weight. The Balanced Budget Act of 1997 (P.L.
105-33) amended this earlier provision on August 5, 1997 by permitting SSA
to schedule a CDR for a low birth weight child at a date after the first birthday
if SSA determines that the impairment is not expected to improve by age 1.

We found that SSA did not conduct the required CDRs in a timely manner.
Projecting the results of our sample to the population, we estimate that at
least 4,078 of the 31,907 low birth weight cases approved in 1998 through
1999 did not have CDRs completed in a timely manner. Had these CDRs been
performed timely, we estimate that SSA might have avoided paying at least $4
million in SSI benefits. Additionally, we found that SSA did not always ensure
CDRs were actually performed once cases were selected. For example, in one
case, follow-up alerts were issued to the FO for over 2 years, but the CDR was
not performed.

To improve SSA’s low birth weight CDR selection and monitoring processes, we
recommended that SSA

 Identify low birth weight cases requiring CDRs each month instead of the
  current semi-annual selection process.
 Include, in each month’s selection, cases in which the medical review
  diaries mature 3 months after the month of CDR selection.
 Discontinue screening out cases in which the recipients are not currently
  receiving payments when the initial CDR selection is made.
 Improve the CDR follow-up alert process so that successive alerts are
  generated to higher levels of management at designated times.

SSA agreed in principle with our recommendations. Specifically, SSA agreed to
select low birth weight cases for CDRs on a monthly basis beginning 3 months
prior to the month the medical review diary matures. SSA also agreed to
develop a paperless process to follow-up on CDRs not processed timely. With
regard to recommendation three, SSA asserts that implementing
recommendations one and two will also address our third issue—since cases
that were not selected based on payment ineligibility will be reexamined each
month and released for CDR development if the recipients begin receiving
payments again. We concur with SSA that recommendation three will not be
needed once SSA begins selecting low birth weight cases for CDRs on a
monthly basis.




                                                                    Significant Management Issues Facing SSA
         40                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Status of SSA's Disability Process Improvement Initiatives

                        In September 1994, SSA released the Plan for a New Disability Claim Process
                        (Plan) in response to increasing case workloads and processing times and
                        concerns with reversal rates at the hearings level. Over the next few years,
                        SSA made little progress in implementing the initiatives outlined in the plan. At
                        the advice of GAO in 1996, SSA subsequently scaled back the number of
                        initiatives that it would concentrate on completing.

                        In March 1999, the Commissioner announced several decisions about the
                        initiatives for improving the disability claim process. Among his decisions were
                        to

                         Combine the most promising features from the Full Process Model initiative
                          into a Prototype, and evaluate the combination of features.
                         Develop a more comprehensive and uniform QA system that improves the
                          review of disability determinations nationwide.
                         Continue testing the Disability Claims Manager (DCM) position through
                          FY 2000.
                         Continue Process Unification efforts.
                         Continue HPIs, eliminating numerous hand-offs and inadequate tracking of
                          cases.

                        The objective of our evaluation was to determine the current status of these
                        five disability process improvement initiatives.

                        We reported that SSA has not made as much progress implementing an
                        improved disability determination process as originally envisioned in the Plan.
                        The new disability claim process was to be fully implemented by FY 2001, but
                        SSA's timelines have been revised frequently to accommodate changes in the
                        initiatives. Of the five initiatives reviewed, the HPI and Process Unification
                        initiatives have been implemented nationwide. Of the remaining initiatives, we
                        reported

                         The Prototype initiative is on hold pending the analysis of program costs
                          and appeals rates to OHA.
                         The plan for the QA initiative has not been fully developed.
                         The DCM initiative did not show a significant overall improvement in claims
                          processing and was not implemented.

                        We recommended that SSA

                         Proceed with national implementation of Prototype only if the benefits of
                          the process justify the increased program, DDS, and OHA costs.
                         Evaluate disability examiner attrition at the 10 Prototype DDSs and take
                          appropriate steps to reduce the rates and complete the evaluation before
                          decisions are made on the national implementation of the Prototype.
                         Develop, establish a timeline with milestones, and implement a
                          comprehensive QA system that produces accurate and uniform disability
                          determinations nationwide.



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                       41



 Assess the impact of Process Unification when data on the OHA allowance
  rates for Prototype claims are available.
 Implement the enhanced automation at OHA as outlined in the HPI plan if
  this initiative continues.

SSA agreed with all the recommendations and provided information on the
steps being taken to implement them.




                                                              Significant Management Issues Facing SSA
         42                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Issue 8: Integrity of the Earnings Reporting
                        Process
                        Earnings information that is reported to SSA by employers and self-employed
                        individuals forms the basis of all benefit calculations under both the OASDI and
                        SSI programs. The integrity of SSA’s process for posting workers’ earnings is
                        critical to ensuring eligible individuals receive the full benefits they are due. If
                        earnings information is reported incorrectly, or not reported at all, SSA cannot
                        ensure that all eligible individuals receive the correct payment amounts. In
                        addition, SSA’s disability programs under OASDI and SSI depend on this
                        earnings information to determine whether an individual is eligible for benefits
                        and the amount of the disability payment. SSA also spends its scarce
                        resources trying to correct the earnings data when inaccurate information is
The integrity of
                        reported.
SSA’s process for
posting workers’
                        The Earnings Suspense File (ESF) primarily consists of reported earnings that
earnings is
                        are put into suspense because the name/SSN combination does not match
critical to
                        validation criteria within SSA’s systems. Although SSA has accurately posted
ensuring eligible
                        approximately 99 percent of all reported earnings, the remaining earnings that
individuals
                        cannot be matched continue to accumulate in the ESF. Between 1937 and
receive the full
                        2000, the ESF grew to about $376 billion in wages, representing
benefits they are
                        approximately 237 million wage items. Each year, SSA receives about 21
due.
                        million wage items that have an invalid name/SSN combination. Through
                        extensive computer matches and manual efforts, this number is reduced to
                        about 6.5 million items annually. Further efforts to resolve invalid wage items
                        can take years.

                        SSA’s Tactical Plan consists of an overall strategy and several individual
                        projects designed to reduce the ESF’s rate of growth and size. For example,
                        SSA expects to expand the use of the voluntary Employee Verification Service
                        (EVS) to assist employers in verifying new hire names/SSNs. However, the
                        changes called for in the tactical plan are long-term, and several factors—both
                        internal and external to SSA—hinder the efforts with the most potential to
                        reduce the ESF’s size and growth.

                        Internal factors include a higher priority given to other automated system
                        developments and the fact that SSA has not linked available information in its
                        database to identify chronic “problem” employers who continually submit
                        annual wage reports with multiple errors. External factors include other
                        Federal agencies with separate yet related mandates, such as the reluctance of
                        the Internal Revenue Service (IRS) to sanction employers for submitting
                        invalid wage data and complicated INS employer procedures for verification of
                        eligible employees.

                        Ensuring the integrity of earnings in the Master Earnings File (MEF), the
                        repository of earnings related to specific individual accounts, is another critical
                        audit area. An earlier OIG audit found the MEF contained over $8.3 billion in
                        duplicate earnings postings. These duplicate earnings errors caused over
                        $10.5 million in excess payments to about 31,800 beneficiaries. Another OIG
                        audit found that SSA did not maintain sufficient controls over the wage
                        reporting process to ensure employers were submitting quality earnings data.
                        The audit noted that 285 employers submitted erroneous wage reports in
                        which over 50 percent of their wages were in error 3 years in a row without



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             43



SSA taking any action, even though more than $8.5 million in penalties could
have been assessed by the IRS. Another 3,428 employers submitted similar
erroneous wage reports in consecutive years.

SSA has developed additional processes to validate the earnings data in the
MEF. In recent years, SSA has mailed Social Security statements to individuals
who had earnings and were age 25 or older. In FY 2001, SSA mailed over 137
million of these statements, of which, over 7 million were returned as
undeliverable. If an individual contacts SSA about missing earnings, these
amounts are reinstated from the ESF to the MEF if they are currently in
suspense, or they are added as new earnings to the MEF. The reasons behind
these reinstated and/or new wages may provide examples of weaknesses in
the overall earnings reporting process, as well as opportunities for correcting
the problems.

Over the past few years, we have noticed some problems in the integrity of the
Earnings Reporting Process and we are currently planning to conduct audits in
this area.

During this period, our auditors issued the following reports on the integrity of
the earnings reporting process.

Management Advisory Report: Recent Efforts to Reduce the Size and
Growth of SSA's Earnings Suspense File

Our objective was to review SSA’s recent ESF Contractor study and to
determine the likelihood of its recommendations reducing the size and growth
of the ESF, while maintaining earnings integrity.

In 1999, SSA hired a contractor, PricewaterhouseCoopers (PwC), to determine
whether SSA should modify its existing practices in managing the ESF, to
follow sound business and accounting practices, and more properly reflect
SSA's activities regarding unidentified earnings. At the conclusion of its study,
PwC made recommendations in three areas:

 Manage the ESF more effectively.
 Reduce the growth and size of the ESF.
 Provide the public with more information on the ESF.

We concluded that many of the alternatives and recommendations provided in
PwC’s study can assist SSA in reducing the size and growth of the ESF, while
maintaining earnings integrity. We concurred with most of the
recommendations related to managing the ESF. Regarding the alternatives for
reducing the growth and size of the ESF, the data and associated analysis
could have been expanded to provide SSA with a better understanding of the
risks related to the more aggressive record removal alternatives. We also
supported PwC's recommendation that SSA provide the public with more
information on the ESF, as such information can assist both SSA and Congress
in monitoring the status of suspended wages.

We recommended that SSA

 Implement the remaining PwC recommendations.



                                                                    Significant Management Issues Facing SSA
         44                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Conduct additional analysis on two PwC recommendations with which we
                          did not agree, before implementing.
                         Implement PwC’s recommendation for presenting ESF information in its
                          performance reports, while also ensuring the measure provides a clear
                          indication of real ESF growth.
                         Limit its removal activities to the more conservative PwC alternatives until
                          more is known about the costs and impact of record removal.

                        SSA stated it has already implemented a number of the recommendations. For
                        the remaining recommendations, SSA is conducting a more in-depth analysis
                        and will consider our recommendations as SSA makes final decisions. In
                        addition, SSA is considering adding a measure to track the reduction in growth
                        of the ESF as part of developing its FY 2004 performance goals and measures.
                        Finally, SSA agreed with our recommendation to limit ESF removal activity
                        until after it evaluated alternatives for archiving ESF items in terms of SSA's
                        mission of maintaining accurate earnings records.

                        Effectiveness of SSA's Earnings After Death Process

                        Our objective was to determine the effectiveness of SSA’s procedures for
                        resolving earnings suspended due to the earnings after death (EAD) process.

                        Title II of the Social Security Act requires that SSA maintain the reported
                        earnings records of individuals. To accomplish this, SSA uses the name and
                        SSN on the reported earnings and compares this information to the Numident,
                        SSA's database containing all issued SSNs. If the name/SSN combination is
                        determined to be valid, SSA records the individual’s earnings in his or her MEF
                        account. Reported earnings that cannot be associated with a specific
                        individual's name and/or SSN are placed in the ESF.

                        As part of the annual earnings reporting process, SSA also reviews the
                        Numident to determine whether the individual is deceased. When a date of
                        death is present on the Numident, all earnings items reported after the year of
                        death are placed in the ESF. The earnings are also transmitted to an EAD
                        investigate file so that notices can be printed and mailed to employers and/or
                        earners.

                        We concluded that SSA's EAD process was not effective in resolving Tax Year
                        1998 suspended earnings items. While SSA has been able to reinstate some
                        suspended earnings through the EAD process, we identified a significant
                        number of items where wage earners are alive on SSA's records, but the
                        earnings have not been reinstated.

                        To improve SSA's ability to reinstate wages suspended under the EAD process,
                        we recommended that SSA

                          1. Resolve remaining cases in our sample where the individuals were incor-
                             rectly listed as deceased, or where another party earned the funds in the
                             ESF.
                          2. Periodically match prior year EAD suspended items to the Numident to
                             determine whether the individuals are still listed as deceased, reinstating
                             earnings as appropriate.



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                          45



 3. Remind staff reinstating earnings suspended under the EAD process to
    remove the date of death on the Numident and determine whether addi-
    tional items suspended for the same individual can be reinstated.
 4. Maintain the annual EAD investigate files with unresolved suspended
    items for later review of potential SSN misuse.
 5. As EAD notices are returned, remove from the ESF those specifically iden-
    tified in the notice related to employees whose deaths are confirmed by
    employers.
 6. Educate the top 10 contributors to the EAD investigate file, especially
    entertainment industry employers, that earnings reported after the year
    of death should be reported as miscellaneous income, not as wages.
 7. Add language to the EAD notice to educate employers on the proper
    reporting procedures for wages after employees have died.

SSA provided a qualified concurrence with Recommendation five stating it
agreed with the intent. However, it noted there is no mechanism for simply
deleting items from the ESF. SSA disagreed with Recommendation six stating
that the dollar amount of items placed into suspense is extremely low from
these employers. SSA agreed with the rest of our recommendations.

SSA’s Employee Verification Service for Registered Employers

Our objective was to evaluate the policies and procedures that SSA has in
place for providing information to registered users of the EVS.

We concluded that while the number of employers registered for EVS has
increased over recent years, the rate of usage actually decreased during the
same period. We also concluded that the EVS program for registered users
lacked the applicant information, and system controls necessary for SSA to
properly monitor and evaluate the program and the EVS electronic data
submissions.

We recommended that SSA

 Modify EVS to detect SSNs for deceased individuals, provide appropriate
  notification to employers, and issue an alert for necessary action by SSA
  staff.
 Modify EVS to detect SSNs for individuals in non-work status, provide
  appropriate notification to employers, and issue an alert for necessary
  action by SSA staff.
 Ensure EVS procedures for providing corrected SSNs to registered users
  are consistent with SSA’s proposed SSN Verification System Program.
 Update the application form to include the SSN of the representative who
  signed the application, the total number of employees in its workforce and
  the identification numbers of related subsidiaries as well as the number of
  employees.
 Obtain signed privacy statements from all EVS users, including those users
  who applied for the service before 1993 and were not required to sign the
  statement.




                                                                 Significant Management Issues Facing SSA
         46                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Archive EVS data for at least 3 years so user activity and trends can be
                          monitored.
                         Establish an annual or periodic reapplication process where EVS registered
                          users are reauthorized to use the service. This process can also be used to
                          re-contact EVS registered users who have not used EVS in the last 3 years,
                          particularly the top 100 chronic problem employers, to encourage greater
                          use of EVS.

                        SSA generally agreed with our findings and noted that EVS was one of SSA’s
                        original SSN verification processes developed almost 20 years ago. SSA
                        advised us that any conclusions drawn regarding the small percentage of
                        employers using the system (1 percent) need to be viewed with caution, given
                        that SSA has added a number of other SSN verification services including the
                        on-line SSN Verification System pilot, the Employer 800-Number, and local FOs
                        services.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                              47



Issue 9: SSN Misuse and Privacy Concerns
(Identity Theft)
The SSN’s original sole purpose was to provide a method to record each U.S.
worker’s earnings accurately. Despite this narrowly-drawn purpose, use of the
SSN as a de facto identifier in other record systems eventually grew. Today the
SSN is the single most widely used identifier for Federal and State
governments, as well as the private sector.

SSA issued over 18 million original and replacement Social Security cards in FY         Under no
2001. SSNs are a tempting tool that unscrupulous individuals acquire                    circumstances,
fraudulently and use for illegal purposes. The effects of using an SSN as a             can we permit the
“breeder” document can be severe and far-reaching. In the wrong hands a                 SSN to be used by
genuine or false SSN can facilitate benefits fraud, check fraud, identity theft,        those who wish to
and even terrorism. As such, protecting SSN integrity remains a top OIG                 camouflage their
priority.                                                                               criminal activities
                                                                                        against the United
There continues to be growing public concern with identity theft. Congress              States...
enacted the Identity Theft and Assumption Deterrence Act of 1998, responding
to the growing epidemic of identity thefts by imposing criminal sanctions for
those who create a false identity or assume someone else’s. The Internet False
Identification Prevention Act of 2000 enabled law enforcement organizations to
pursue operators who could previously sell counterfeit Social Security cards
legally by maintaining the fiction that such cards were “novelties.”

Today the Federal Trade Commission (FTC) is the Federal clearinghouse for
complaints by victims of identity theft. FTC has established a centralized
complaint and consumer education service for victims. Though it will not
investigate complaints, it will make them available to appropriate law
enforcement agencies.

Our role in identity theft is focused on protecting the integrity and defending
against the misuse of the SSN. Reports of SSN misuse increased from
approximately 11,000 in FY 1998 to over 73,000 during FY 2002.
These are not necessarily small operations with solitary victims.
Increasingly, large-scale efforts to abuse the SSN aim not only at
identity theft, but also at the wholesaling of fraudulent
identities and documentation.

“We have long been aware that failure to protect the integrity
of the SSN has enormous financial consequences for the
Government, the people, and the business community,”
Inspector General Huse told a hearing of the House Judiciary
Committee’s Subcommittees on Immigration, Border
Security, and Claims and Crime, Terrorism, and Homeland
Security on June 25, 2002. “We now know that the burden
that the enumeration process carries can have far graver
consequences than previously imagined and as such, SSA can
no afford to operate from a ‘business as usual’ perspective.
Whatever the cost, whatever the sacrifice, we must protect the
number that has become our national identifier; the number that is
the key to social, legal, and financial assimilation in this country.”




                                                                     Significant Management Issues Facing SSA
         48                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Inspector General Huse testified on SSN integrity before six congressional
                        hearings in this reporting period. He has reiterated that our audit and
                              investigative work identifies three distinct approaches to SSN integrity
                                for which legislation is critically needed. The first area is limiting the
                                  use and display of the SSN already in circulation in the public and
                                    private sectors. Second, the present arsenal of criminal, civil, and
                                     administrative penalties is clearly insufficient to deter and/or
                                       punish identity thieves. The third approach is requiring the
                                         cross-verification of SSNs through both governmental and
                                         private sector systems of records to identify and address
                                       anomalies in SSA’s files, and in databases at various levels of
                                   government and the financial sector.

                           We recognize that SSA has a difficult task in balancing service and security.
                        To adequately combat SSN misuse, it must employ effective front-end controls
                        in its enumeration process. Additional techniques—such as data mining,
                        biometrics, and enhanced systems controls—are critical in the fight against
                        SSN misuse. In a recent policy change, SSA will now hold non-citizens’
                        applications for new SSNs until their evidentiary documents can be verified
                        with the INS. Furthermore, SSA has stopped issuing SSNs for the sole purpose
                        of obtaining State driver's licenses. While SSA is justifiably proud of its
                        reputation for timely service, these decisions underscore SSA's commitments
                        to strengthen enumeration integrity and to support greater security of our
                        Nation's borders.

                        Our auditors have conducted the following work in this area.

                        Management Advisory Report: Social Security Number Integrity: An
                        Important Link in Homeland Security

                        Strengthening SSN integrity is one way SSA can make an important
                        contribution to homeland security. As the report of the Office of Homeland
                        Security, Securing the Homeland, Strengthening the Nation, stated, “The
                        Government of the United States has no more important mission than fighting
                        terrorism overseas and securing the homeland from future terrorist attacks.”
                        Federal agencies, including SSA, have embraced this monumental challenge.

                        As such, we issued this Management Advisory Report to provide information
                        regarding

                         How SSN integrity is a critical element in the protection of the homeland.
                         What SSA and OIG have done to ensure the SSN’s integrity.
                         What tasks remain in this important effort.

                        In our report, we explained how SSN integrity impacts homeland security. As
                        use of the SSN has grown, so has its misuse. Because the SSN is so heavily
                        relied upon as an identifier, it is a valuable commodity for criminals. In FY
                        2001, the SSA OIG Fraud Hotline received over 115,000 allegations of fraud.
                        Of this total, over 55 percent were allegations of SSN misuse. Given the
                        magnitude of such allegations and competing priorities, OIG is regrettably
                        unable to investigate a large percentage of the possible criminal violations
                        involving SSN misuse. Nevertheless, in response to the September 11 attacks,




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                            49



we have committed extensive resources to investigating cases in which SSNs
may have been used to facilitate or camouflage terrorist crimes.

SSA Continues Assigning Original Social Security Numbers to
Foreign-Born Individuals Who Present Invalid Evidentiary Documents

We completed an audit in which we reviewed SSA’s procedures for verifying
documents that are submitted with SSN applications. Results indicated that
thousands of the 1.2 million original SSNs assigned to non-citizens in Calendar
Year 2000 might have been based on invalid immigration documents.

In this report, we also discussed the steps SSA and the OIG have taken to
address this critical issue. We outlined numerous initiatives SSA has started or
planned based on recommendations made by its newly formed Enumeration
Task Force. This committee was established to re-examine the entire
enumeration process, including previous OIG recommendations, to identify
ways SSA can strengthen its enumeration policies and procedures. As a
member of this Task Force, we have shared many insights and ideas with SSA,
which we believe will help increase the integrity of the enumeration process.

Finally, in the report, we provided insight into what more needs to be done to
ensure SSN integrity in a post-September 11th environment. Our audit and
investigative work has shown that there are three stages at which protections
for the SSN must be put in place

 Upon issuance.
 During the life of the number holder.
 Upon that individual’s death.

To address vulnerabilities at each of these three stages, we suggested that
SSA or Congress should pursue the following actions

 Independently verify birth and immigration records submitted to support
  an SSN application.
 Limit the SSN’s public availability to the greatest extent practicable,
  without unduly limiting commerce.
 Prohibit the sale of SSNs, prohibit their display on public records, and limit
  their use to valid transactions.
 Enact strong enforcement mechanisms and stiff penalties to further
  discourage SSN misuse.
Do more to protect the SSN after the number holder’s death.

SSN Integrity Case Highlights

Assaults on the integrity of the SSN and the system behind it–as opposed to
simple cases of SSN misuse and identity theft–have risen sharply in the past
year. Examples of our work on such cases include:




                                                                   Significant Management Issues Facing SSA
         50                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                                          INS, our Denver Field Division, and local law enforcement
                                          conducted a joint investigation into the operations of several
                                          traffickers of counterfeit Social Security cards and other
                                          documents working in the greater Salt Lake City, Utah, area.
                                          Investigators found that a family from Mexico City controlled
                        an organization that manufactured and sold counterfeit documents primarily to
                        illegal aliens. Its estimated income from the document sales was $2-3 million
                        annually. OIG and INS agents identified the organization’s leaders and used
                        search warrants to seize fake Government documents and equipment used to
                        produce them. As a result, nine people received sentences for prison time
                        and/or deportation, six others remain fugitives, and one leader’s case is
                        pending trial.

                                       Our Chicago Field Division investigated an illegal alien from
                                       Mali who assisted about 250-300 other illegal aliens–as well as
                                       legal aliens without work authorization–to alter their visas to
                                       obtain legitimate Social Security cards at SSA offices. He was
                                       convicted of immigration document fraud, furnishing false
                        information to SSA, making false statements, mail fraud, and possession of
                        Government identification with intent to defraud and he was incarcerated.

                        Other SSN Misuse Case Highlights

                        People use fraudulently-obtained SSNs for a variety of criminal purposes, as
                        demonstrated in the case examples below.

                                        Our Chicago Field Division investigated a Michigan man who
                                        misused SSNs to establish credit. Over 2 years, he secured a
                                        credit card, obtained home loans, received construction loans
                                        to build properties, and purchased vehicles–all through
                                        providing false information during the application process. His
                        fraud scheme victimized First Security Bank, American Honda Finance
                        Corporation, Principal Residential Mortgage, Desert First Credit Union, Bank of
                        Utah, and Calvary Investments. He was incarcerated and ordered to pay
                        $266,114 in restitution to six different financial institutions and private
                        businesses.

                                         Detectives in Connecticut told our New York Field Division
                                         about an organization using stolen identities to set up
                                         fraudulent checking accounts and pass bogus checks using
                                         false identification. Group members presented forged SSA
                                         forms to obtain State identification cards with their
                        photographs and fraudulent identifiers. They printed counterfeit checks made
                        out to the false identities, and cashed them at several banks. Total losses to
                        financial institutions in this case exceeded $400,000. Our agents in
                        cooperation with CID’s ECT, the Secret Service, USMS, and various police
                        departments arrested all nine conspirators. They received sentences ranging
                        from home confinement to incarceration, and have been ordered to pay
                        restitution.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                           51



                Our Philadelphia Field Division investigated a case where more
                than 40 victims had their identities stolen in a scheme
                involving 11 auto dealers as co-conspirators and 79 vehicles
                worth over $2 million. A North Philadelphia businessman
                brought people with bad credit to area car dealerships, where
the salesmen sold them cars using the victims’ stolen identities. One salesman
was incarcerated and ordered to pay $300,225 in restitution. The businessman
was sent to prison and ordered to pay restitution of $1,155,591. The
restitution was ordered to seven automobile dealerships, five insurance
companies and other financial institutions.

                In Illinois, a would-be car purchaser found his credit report
                showed approximately $100,000 of debt associated with his
                SSN, but in another name. Our Chicago Field Division found the
                culprit, who had used several different SSNs and numerous
                aliases to get credit cards and bank loans. He told our agents
that when he lost his job as a credit manager, he stole credit reports and used
the SSNs to get credit cards, bank loans, homes, vehicles, computers and
cash. He set up a business and then processed
some $500 in credit card transactions each day. He
admitted buying two homes and three vehicles
using aliases. He was incarcerated and ordered to
pay $383,000 in restitution to credit card
companies and banking institutions. He also
forfeited both homes and the vehicles.




                                                                  Significant Management Issues Facing SSA
         52                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                        Issue 10: Integrity of the Representative Payee
                        Program
                        Some individuals cannot manage or direct the management of their finances
                        because of their youth or their mental or physical impairments. Congress
                        granted SSA the authority to appoint representative payees to receive and
                        manage these beneficiaries’ payments. A representative payee may be an
                        individual or an organization. SSA selects representative payees for OASDI
                        beneficiaries or SSI recipients when representative payments would serve the
                        individual’s interests. As of July 2002, there were about 5.4 million
 Representative         representative payees who manage benefits for about 7.6 million beneficiaries.
 payees are
 responsible for        Representative payees are responsible for using benefits in the individual’s
 using benefits         best interests. Their duties include
 in the
 individual’s            Using benefits to meet the individual’s current and foreseeable needs.
 best interests.         Conserving and investing benefits not needed to meet the individual’s
                          current needs.
                         Maintaining accounting records of how the benefits are received and used.
                         Reporting events to SSA that may affect the individual's entitlement or
                          benefit payment amount.
                         Reporting any changes in circumstances that would affect their
                          performance as a representative payee.
                         Providing SSA an annual Representative Payee Report of how benefits were
                          spent and invested.

                        Representative Payee Fraud Case Highlights

                        The following cases highlight our activity in this area.

                                         Our Chicago Field Division determined that a Michigan
                                         representative payee made repeated false statements to SSA
                                         regarding household income and living arrangements with her
                                         husband. Our investigators found she was paid SSI benefits on
                                         behalf of her son for approximately 15 years, though he was
                        not eligible to receive them. She was ordered to pay $71,517 restitution to
                        SSA.

                                       Based on a referral from SSA’s Syracuse, New York office, our
                                       New York Field Division investigated a fee-for-service
                                       representative payee. During a routine review of the company,
                                       SSA employees became concerned that the company appeared
                                       to be operating on a larger scale than its estimated income
                        made possible. We found the company was using SSA beneficiaries’ funds for
                        operating expenses. As a result of our investigation, the company president
                        turned $359,122 over to SSA. He was also incarcerated and ordered to pay
                        $163,669 restitution to SSA.




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             53



                Our St. Louis Field Division, along with the Department of
                Veterans Affairs (VA) OIG, investigated a Kansas man who was
                representative payee for several recipients of VA and SSA
                benefits for several years. He looted their benefits, telling
                agents after his arrest he needed the money to pay for his
drinking habit. He also admitted selling at least three recipients' farms for
more than $70,000 each. He was sentenced to home confinement and ordered
to pay $490,625 in restitution.

Our auditors conducted the following reviews in this area.

Summary of Financial-Related Audits of Representative Payees for the
Social Security Administration

In FY 2001, we performed six financial-related audits of representative payees.
Our audit results showed that representative payees did not always meet their
responsibilities to the beneficiaries they served. We identified deficiencies with
the financial management of, and accounting for, benefit receipts and
disbursements, poor monitoring and reporting to SSA of changes in beneficiary
circumstances, inappropriate handling of beneficiary conserved funds and
improper charging of fees.

We also identified issues related to SSA’s oversight of representative payees.
These issues concerned problems associated with the annual Representative
Payee Reports (RPR) and the potential benefits of using stored value cards or
similar technology.

Representative Payee Reports

During our reviews, we found several completed Representative Payee Reports
that had questionable information that should have initiated a SSA review. For
example, we found Representative Payee Reports with no reported beneficiary
expenses. In addition, some Reports listed excess conserved funds for SSI
recipients. In neither instance, did SSA take appropriate actions to review the
questionable information.

We also found SSA could not always retrieve completed Representative Payee
Reports when needed. As part of our FY 2001 audits, we requested SSA to
provide the most recently completed Reports for 167 beneficiaries. However,
SSA was only able provided 67 of the Representative Payee Reports. For the
remaining 100, we could not determine whether the representative payee
properly submitted the Reports.

Stored Value Cards

A stored value card is a prepaid spending card that can be used where most
credit cards are accepted. Spending is limited to the amount of money
transferred to the card. Stored value cards do not have a line of credit and can
be used to make automated teller machine withdrawals. The use of the stored
value cards could facilitate improved monitoring of representative payees
spending and accounting for benefit payments. Some of the potential benefits
include.




                                                                    Significant Management Issues Facing SSA
         54                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Enabling SSA to obtain spending information directly from the stored value
                          card company on the type and amount of expense incurred by the
                          representative payee.
                         Allowing SSA to identify instances of questionable expenses or unusual
                          spending patterns and establishing merchant blocking for certain vendors.
                         Tracking conserved fund balances that should be returned to SSA.
                         Eliminating the Representative Payee Reports and providing significant
                          administrative savings of costs for mailing and processing Representative
                          Payee Reports. Almost 7 million Reports are mailed and processed annually
                          at a cost of about $52 million.

                        We recommended that SSA

                          1. Take appropriate follow-up actions to ensure the representative payees
                             implement the 29 OIG recommendations made from the 6 FY 2001
                             audits.
                          2. Pilot the use of stored value card or similar technology for representative
                             payees.

                        SSA agreed with recommendation one but disagreed with recommendation
                        two. In its response, SSA concluded that stored value cards would be
                        time-consuming and labor-intensive for representative payees. However, SSA
                        is committed to improving the Representative Payment Program and is
                        exploring other innovative approaches for monitoring representative payees.

                        Financial-Related Audits of Representative Payees

                        We completed four financial-related audits of representative payees. The four
                        audits were

                         Financial-Related Audit of Jackson County Public Administrator-
                          An Organizational Representative Payee for SSA
                         Financial-Related Audit of A. Holly Patterson Extended Care Facility –
                          A Representative Payee for SSA
                         Financial-Related Audit of Florida Department of Children and Families –
                          District 6, an Organizational Representative Payee for SSA
                         Financial-Related Audit of Denver Department of Human Services –
                          An Organizational Representative Payee for SSA

                        The objectives of these audits were to determine whether the representative
                        payees

                          1. Had effective safeguards over the receipt and disbursement of Social
                             Security benefits.
                          2. Ensure Social Security benefits are used and accounted for in accordance
                             with SSA policies and procedures.

                        We determined that the representative payees generally had effective
                        safeguards over the receipt and disbursement of benefits and ensured they




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             55



were used and accounted for in accordance with SSA’s policies and procedures.
However, we identified the following deficiencies.

 1. Three representative payees failed to monitor and report changes that
    affected benefit eligibility which resulted in an estimated $145,453 in
    benefit overpayments for 54 beneficiaries.
 2. One representative payee did not promptly return $20,922 in conserved
    funds for five individuals who were no longer in its care, withholding the
    funds for an average of 8 months.
 3. Two representative payees did not have adequate documentation to sup-
    port the personal needs allowance of institutionalized beneficiaries.

The following summarizes the recommendations we reported to the
appropriate SSA Regional Commissioner. We recommended that SSA require
the representative payees to

 Return overpayment funds for recipients who were ineligible for SSI
  because their resources exceeded the eligibility limit.
 Re-emphasize procedures with the representative payee for notifying SSA
  when events occur that affect the eligibility of individuals in its care.
 Return conserved funds of beneficiaries no longer in its care to the
  appropriate responsible party.
 Maintain the proper level of documentation to account for and safeguard
  the monthly personal spending allowances of SSA beneficiaries living in
  institutions.

SSA agreed with all of our recommendations.

Analysis of Information Concerning Representative Payee Misuse of
Beneficiaries’ Payments

Our objective was to analyze information concerning representative payee
misuse of beneficiaries’ payments. Specifically, we were to determine whether
common characteristics existed for representative payees who had misused
beneficiary payments.

Based on our review of information contained in SSA’s Representative Payee
System, we did not statistically identify significant common characteristics that
were unique to representative payees who misused benefit payments.
However, our analysis of the Representative Payee System data identified
several problems in SSA’s monitoring and oversight of these representative
payees. Specifically, we found the following.

 Misuse cases we reviewed were not always referred to the OIG for possible
  criminal, civil, and/or administrative remedies.
 Additional misuse cases may exist that should be referred to the OIG.
 SSA frequently retained representative payees who misused benefit
  payments.




                                                                    Significant Management Issues Facing SSA
         56                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                         Representative payees who misused payments and were subsequently
                          retained as representative payees did not always make mandatory
                          repayment of misused benefit payments.
                         Representative payees who were previously incarcerated misused benefit
                          payments and continued as representative payees.
                         Representative payees managed benefits of others when SSA had
                          determined they could not manage their own benefits.

                        We recommended that SSA

                          1. Develop and implement a process to identify and refer prior known
                             instances of representative payee misuse to the OIG for possible criminal,
                             civil, and/or administrative remedies.
                          2. Follow existing policy for referring all future representative payee misuse
                             cases to the OIG for possible criminal, civil, and/or administrative reme-
                             dies.
                          3. Comply with Agency policy that representative payees are rarely retained
                             after misuse has occurred.
                          4. Periodically assess the continued suitability of representative payees that
                             previously misused benefit payments. SSA should closely monitor these
                             representative payees to detect and prevent the misuse of benefit pay-
                             ments belonging to its most vulnerable beneficiaries.
                          5. Create and implement management controls to ensure compliance with
                             mandatory repayment of misused benefit payments when representative
                             payees are retained after benefit payment misuse has occurred.
                          6. Automate the process that identifies incarcerated representative payees.
                             This process should alert SSA of the need to assess an individual’s contin-
                             ued suitability to serve as a representative payee.
                          7. Implement management controls to prevent the appointment of individu-
                             als as representative payees who have a representative payee managing
                             their own benefits, and identify individuals currently serving as represen-
                             tative payees that become incapable of managing their own benefits.

                        SSA agreed with all of our recommendations.

                        Audit of Information System Controls of the Social Security
                        Administration’s Representative Payee System (Limited Distribution)

                        Our objective was to assess the representative payee system’s input,
                        processing and output (application) controls.

                        We reviewed the significant application controls for the representative payee
                        system. While we found many controls were strong and operating effectively,
                        we also identified areas where controls should be improved. Our specific
                        findings were as follows.

                         Input controls are strong but should be improved.
                         Processing controls needed to be strengthened.
                         Processing alerts needed improvement.



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                             57



Based on the information obtained from SSA and the tests we performed, we
made 13 recommendations to SSA for improvements in the representative
payee system. SSA agreed with our recommendations and is in the process of
either implementing the recommended changes or evaluating the extent of
system changes needed to implement the recommendations. Because of the
sensitive nature of this audit, we cannot describe in detail the findings of this
report. This report is not available for distribution.




A Special Thank You
We would like to thank our entire OIG staff for their outstanding efforts and
contributions, without which this report would not have been possible.




                                                                    Significant Management Issues Facing SSA
         58                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                59




                                      Appendices
60   SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                            61



Appendix A
Resolving Audit Recommendations
The following chart summarizes Social Security Administration’s (SSA) responses to Office of the
Inspector General’s recommendations for the recovery or redirection of questioned and unsupported
costs. Questioned costs are those costs that are challenged because of a violation of law, regulation,
etc. Unsupported costs are those costs that are questioned because they are not justified by
adequate documentation. This information is provided in accordance with the Supplemental
Appropriation and Recession Act of 1980 (Public Law 96-304) and the Inspector General Act of
1978, as amended.

                   Reports With Questioned Costs for the Reporting Period
                         April 1, 2002 Through September 30, 2002

                                                   Number                  Value Questioned                  Value Unsupported

 A. For which no management decision                                 8a                     $4,753,130                        $6,086,943
    had been made by the
    commencement of the reporting
    period.

 B. Which were issued during the                                     6b                     $5,998,136                           $366,019
    reporting period.

                      Subtotal (A+B)                                 14                    $10,751,266                        $6,452,962

 Less:

 C. For which a management decision                                  7c                     $7,463,488                              $9,186
    was made during the reporting
    period:

    i. Dollar value of disallowed costs.                             5d                     $6,534,150                              $9,186

    ii. Dollar value of costs not                                                              $929,338                                    $0
        disallowed.                                                  2e

 D. For which no management decision                                 8f                     $3,287,778                        $6,443,776
    had been made by the end of the
    reporting period.

   a     Single Audit of the State of Florida for the Fiscal Year (FY) Ended June 30, 2000 (A-77-01-00012, 8/24/01); Single Audit of the
         State of West Virginia for the FY Ended June 30, 2000 (A-77-01-00013, 8/29/01); Single Audit of the Commonwealth of Puerto
         Rico, Department of the Family for the FY Ended June 30, 1997 (A-77-01-00014, 8/30/01); Single Audit of the State of Michigan,
         Family Independence Agency for the 2-Year Period Ended September 30, 2000 (A-77-02-00003, 11/20/01); Single Audit of the
         Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1998 (A-77-02-00006, 1/29/02); Single Audit
         of the Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1999 (A-77-02-00007, 1/30/02);
         Single Audit of the State of New York for the FY Ended March 31, 2000 (A-77-02-00008, 2/25/02); Review of Maximus Contract
         Numbers 600-94-10784 and 600-95-22666 (Limited Distribution, A-15-00-30015, 3/8/02).
   b     See Reports with Questioned Costs in Appendix B of this report.
   c     Review of Maximus Contract Numbers 600-94-10784 and 600-95-22666 (Limited Distribution, A-15-00-30015, 3/8/02)
         contained dollars that were disallowed and dollars not disallowed.
   d     Single Audit of the State of Michigan, Family Independence Agency for the 2-Year Period Ended September 30, 2000
         (A-77-02-00003, 11/20/01); Review of Maximus Contract Numbers 600-94-10784 and 600-95-22666 (Limited Distribution,
         A-15-00-30015, 3/8/02); Financial-Related Audit of A. Holly Patterson Extended Care Facility - A Representative Payee for the
         Social Security Administration (A-02-02-12034, 6/18/02); Financial-Related Audit of the Florida Department of Children and
         Families - District 6, an Organizational Representative Payee for the Social Security Administration (A-08-02-12007, 9/17/02);
         Effectiveness of the Social Security Administration’s Death Termination Process (A-09-02-22023, 9/17/02).
   e     Single Audit of the State of New York for the Fiscal Year Ended March 31, 2000 (A-77-02-00008, 2/25/02) and Review of Maximus
         Contract Numbers 600-94-10784 and 600-95-22666 (Limited Distribution, A-15-00-30015, 3/8/02).




                                                                                                                                Appendix A
            62                               SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002


    f     Single Audit of the State of Florida for the FY Ended June 30, 2000 (A-77-01-00012, 8/24/01); Single Audit of the State of West
          Virginia for the FY Ended June 30, 2000 (A-77-01-00013, 8/29/01); Single Audit of the Commonwealth of Puerto Rico,
          Department of the Family for the FY Ended June 30, 1997 (A-77-01-00014, 8/30/01); Single Audit of the Commonwealth of
          Puerto Rico, Department of the Family for the FY Ended June 30, 1998 (A-77-02-00006, 1/29/02); Single Audit of the
          Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1999 (A-77-02-00007, 1/30/02);
          Management Advisory Report on the Single Audit of the State of Florida for the Fiscal Year ended June 30, 2001 (A-77-02-00014,
          7/26/02; Representative Payee Investigation of Case Management Services (No Distribution Available, A-02-01-21041, 7/31/02;
          Controls to Prevent Supplemental Security Income Payments to Recipients Living in Foreign COuntries (A-01-02-12013,
          9/13/02).


The following charts summarize SSA’s response to our recommendations that funds be put to better
use through cost avoidances, budget savings, etc.

  Reports With Recommendations That Funds Be Put to Better Use for the
       Reporting Period April 1, 2002 Through September 30, 2002

                                                                                                        Number          Dollar Value

 A. For which no management decision had been made by the commencement of the                                      0                        $0
    reporting period.

 B. Which were issued during the reporting period.                                                                4a         $159,320,821

                                 Subtotal (A+B)                                                                    4         $159,320,821

 C. For which a management decision was made during the reporting period.

        i. Dollar value of recommendations that were agreed to by management.

                       (a) Based on proposed management action.                                                   3b         $159,314,421

                       (b) Based on proposed legislative action.                                                   0                        $0

                                 Subtotal (a+b)                                                                    3         $159,314,421

        ii. Dollar value of costs that were not agreed to by management.                                           0                        $0

                                 Subtotal (i+ii)                                                                   0                        $0

 D. For which no management decision had been made by the end of the reporting                                    1c                 $6,400
    period.

    a     See Reports with Funds Put to Better Use in Appendix B of this report.
    b     Continuing Disability Reviews for Supplemental Security Income Recipients Approved Based on Low Birth Weight
          (A-01-02-12031, 6/26/02); The Social Security Administration Can Recover Millions in Medicare Premiums Related to Retirement
          or Disability Payments Made After Death (A-08-02-12029, 7/3/02); Impact on the Social Security Administration’s Programs
          When Auxiliary Beneficiaries Do Not Have Their Own Social Security Numbers (A-01-02-22006, 9/20/02.
    c     Review of Internal Controls for the Supplemental Security Income Immediate Payment Process (A-05-00-10045, 9/10/02).




Appendix A
SSA OFFICE OF THE INSPECTOR GENERAL                                                                           63



Appendix B
Reports Issued

               Reports With Non-Monetary Findings Reports Issued from
                       October 1, 2001 through March 31, 2002
 Date Issued    Title of Report                                                                         Report Number

 10/2/01        Performance Measure Review: Reliability of the Data Used to Measure the Timely          A-02-99-11001
                  Processing of Disability Insurance Claims

 10/3/01        Congressional Response Report: Social Security Number Misuse: A Challenge For           A-08-02-22030
                  the Social Security Administration

 10/11/01       Single Audit of the State of Georgia for the Fiscal Year Ended June 30, 2000            A-77-02-00001

 10/22/01       Assessment of the Electronic Disability Project                                         A-14-01-11044

 10/24/01       Financial-Related Audit of an Individual Representative Payee for the Social Security   A-06-00-10063
                   Administration in Region VI

 10/25/01       Congressional Response Report: Terrorist Misuse of Social Security Numbers              A-08-02-32041

 10/31/01       Single Audit of the State of Alabama for the Fiscal Year Ended September 30, 2000       A-77-02-00002

 11/6/01        Performance Measure Review: Reliability of the Data Used to Measure Disability          A-02-00-10017
                  Claims Processing

 11/6/01        Congressional Response Report: Social Security Administration's SmartPay Program        A-13-02-22059

 11/14/01       Congressional Response Report: Select Social Security Administration Stewardship        A-08-02-22028
                  Efforts and Reported Savings

 11/26/01       Disability Determination Services' Budget Execution and Reporting of Limitation on      A-15-99-52001
                  Administrative Expenses Funds

 11/29/01       Single Audit of the State of Oklahoma for the Fiscal Year Ended June 30, 2000           A-77-02-00004

 12/7/01        Inspector General Statement on the Social Security Administration's Major               A-02-02-12054
                  Management Challenges

 12/11/01       Audit of the Fiscal Years 2001 and 2000 Financial Statements of the Social Security     A-15-01-11036
                  Administration and the Results of the Office of the Inspector General’s Review
                  Thereof

 12/17/01       Follow-up Review of the Social Security Administration's Implementation of Drug         A-01-01-11029
                   Addiction and Alcoholism Provisions of Public Law 104-121

 12/21/01       Single Audit of the State of Rhode Island for the Fiscal Year Ended June 30, 2000       A-77-02-00005

 1/14/02        Disclosure of Personal Beneficiary Information to the Public (Limited Distribution)     A-01-01-01018

 1/14/02        Performance Measure Review: Reliability of the Data Used to Measure Anti-Fraud          A-02-01-11013
                  Performance

 2/7/02         Performance Measure Review: Reliability of the Data Used to Measure Public              A-02-01-11015
                  Knowledge of the Social Security Administration

 2/7/02         Status of the Social Security Administration's Implementation of Fiscal Year 1999
                  Management Letter Recommendations                                                     A-15-00-30056

 2/27/02        Single Audit of the State of Minnesota for the Fiscal Year Ended June 30, 2000          A-77-02-00009




                                                                                                               Appendix B
           64                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                Reports With Non-Monetary Findings Reports Issued from
                        October 1, 2001 through March 31, 2002
 Date Issued     Title of Report                                                                      Report Number

 3/8/02          Performance Measure Review: Reliability of the Data Used to Measure the Quality of   A-02-01-11011
                   the Social Security Administration's Research

 3/12/02         Single Audit of the State of Wisconsin for the Fiscal Year Ended June 30, 2000       A-77-02-00010

 3/18/02         Fact-Finding Report: The Office of Hearings and Appeals' Procedures for Addressing   A-13-02-22062
                   Allegations of Mismanagement (Limited Distribution)

 3/26/02         Single Audit for the State of New Mexico, Department of Education for the Fiscal     A-77-02-00011
                    Year Ended June 30, 2000

 3/27/02         Performance Measure Review: The Social Security Administration's Transition          A-02-01-11014
                   Planning

 3/29/02         Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the       A-14-01-11048
                   State of Utah




                Reports With Non-Monetary Findings Reports Issued from
                       April 1, 2002 through September 30, 2002
 Date Issued     Title of Report                                                                      Report Number

 4/15/02         Performance Measure Review: Reliability of the Data Used to Measure Employer         A-02-01-11012
                   Satisfaction

 4/17/02         Performance Measure Review: Reliability of the Data Used to Measure the Office of    A-12-00-10057
                   Hearings and Appeals Decisional Accuracy

 4/19/02         Defense Contract Audit Agency Report on Audit of Costs Incurred for Fiscal Years     A-15-02-22074
                   Ended December 31, 1997 and 1998 under Contract Number 600-93-0073,
                   Cexec, Inc., Report No. 6151-2002-B17900101 (Limited Distribution)

 4/29/02         Congressional Response Report: The Social Security Administration’s Policies and     A-13-02-22065
                   Procedures Concerning the Rural Development Act of 1972

 4/30/02         Single Audit of the State of Illinois for the Fiscal Year Ended June 30, 2000        A-77-02-00012

 5/1/02          Review of Security Over Remote Access to the Social Security Administration’s Main   A-14-01-11010
                   Processing Environment (Limited Distribution)

 5/9/02          Management Advisory Report: Social Security Number Integrity: An Important Link      A-08-02-22077
                   to Homeland Security

 5/9/02          Management Advisory Report: Fiscal Year 2001 Quick Response Activities Summary       A-13-02-12057
                   Report

 5/24/02         Management Advisory Report: Recent Efforts to Reduce the Size and Growth of the      A-03-01-30035
                   Social Security Administration's Earnings Suspense File

 5/31/02         Performance Measure Review: Increase in the Number of Disabled Beneficiaries Who     A-01-01-11022
                   Are Working

 6/10/02         Financial-Related Audit of Jackson County Public Administrator - An Organizational   A-07-02-22002
                    Representative Payee for the Social Security Administration

 6/18/02         Congressional Response Report: Noncitizen Enumeration at the Social Security         A-03-02-22078
                   Administration’s Rochester, Minnesota Field Office




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                                          65



               Reports With Non-Monetary Findings Reports Issued from
                      April 1, 2002 through September 30, 2002
 Date Issued    Title of Report                                                                        Report Number

 6/18/02        Status of the Social Security Administration’s Disability Process Improvement          A-07-00-10055
                  Initiatives

 6/24/02        Management Advisory Report on the Single Audit of the State of Delaware for the        A-77-02-00013
                  Fiscal Year Ended June 30, 2001

 6/25/02        Analysis of Information Concerning Representative Payee Misuse of Beneficiaries’       A-13-01-11004
                  Payments

 6/26/02        Follow-up Evaluation of the Use of Official Time for Union Activities at the Social    A-13-01-11005
                   Security Administration

 7/3/02         Effectiveness of the Social Security Administration’s Decentralized Correspondence     A-03-01-11034
                   Process

 7/30/02        Performance Measure Review: Reliability of the Data Used to Measure Electronic         A-14-01-11032
                  Service Delivery

 7/30/02        Management Advisory Report: Regional Reviews May Disclose State Disability             A-15-00-20050
                  Determination Services’ Usage of Social Security Administration Computer
                  Equipment for Non-Program Purposes

 7/31/02        Congressional Response Report: Washington, D.C., Office of Hearings and Appeals        A-13-02-22070
                  (Limited Distribution)

 8/1/02         Case Folder Storage and Retrieval at the Social Security Administration’s Megasite     A-04-99-62006
                  Records Center

 8/1/02         Performance Measure Review: Assessing the Methodology Used to Determine the            A-06-01-11037
                  Number of Hearings Cases Processed Per Work Year

 8/5/02         Performance Measure Review: Reliability of the Data Used to Measure the Number of      A-02-99-11003
                  Supplemental Security Income Non-Disability Redeterminations Completed

 8/5/02         Management Advisory Report: Summary of Financial-Related Audits of                     A-13-00-10065
                  Representative Payees for the Social Security Administration

 8/8/02         Congressional Response Report: Integrity of the Supplemental Security Income           A-01-02-22095
                  Program

 8/9/02         Internal Control Review of the Office of Earnings Operations Processing of             A-15-01-21030
                   Remittances and Handling of Mail (Limited Distribution)

 8/12/02        Issue Paper: Pilot Strategy for the Use of Stored Value Cards in the Social Security   A-13-02-22096
                   Administration’s Representative Payment Program

 8/19/02        Effectiveness of the Social Security Administration’s Earnings After Death Process     A-03-01-11035

 8/21/02        Management Advisory Report: Single Audit of the State of Maryland for the Fiscal       A-77-02-00015
                  Year Ended June 30, 2001

 8/22/02        The Social Security Administration Continues Assigning Original Social Security        A-08-02-12056
                  Numbers to Foreign-Born Individuals Who Present Invalid Evidentiary Documents

 8/28/02        Congressional Response Report: Huntington, West Virginia, Office of Hearings and       A-13-02-22090
                  Appeals (Limited Distribution)

 9/12/02        The Social Security Administration’s Employee Verification Service for Registered      A-03-02-22008
                  Employers

 9/12/02        Management Advisory Report: Social Security Administration Employees with Title        A-04-99-64005
                  XVI Overpayment Write-offs




                                                                                                              Appendix B
           66                         SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



                Reports With Non-Monetary Findings Reports Issued from
                       April 1, 2002 through September 30, 2002
 Date Issued     Title of Report                                                                       Report Number

 9/12/02         The Social Security Administration’s Compliance with the Government Information       A-14-02-12042
                   Security Reform Act (Limited Distribution)

 9/19/02         Administrative Costs Claimed by the Alabama Disability Determination Service          A-08-01-11050

 9/20/02         Summary of Single Audit Oversight Activities                                          A-07-02-32035

 9/20/02         Status of the Social Security Administration’s Implementation of Fiscal Year 2000     A-15-02-12046
                   Management Letter Issues

 9/23/02         Financial-Related Audit of Denver Department of Human Services - An                   A-05-02-12024
                    Organizational Representative Payee for the Social Security Administration

 9/23/02          Social Security Administration’s Management of Congressional Inquiries               A-13-02-12011

 9/25/02          Administrative Costs Claimed by the North Dakota Disability Determination Services   A-15-02-12036

 9/26/02         Management Advisory Report: Review of Social Security Administration’s Data           A-14-02-12037
                   Exchange with Other Agencies (Limited Distribution)

 9/30/02         General Controls of the Alabama Disability Determination Services Claims              A-14-02-22089
                   Processing System Need Improvement (Limited Distribution)

 9/30/02         Amount of Information System Controls of the Social Security Administration’s         A-44-01-31051
                   Representative Payee System (Limited Distribution)




                  Reports With Questioned Costs—Reports Issued from
                       October 1, 2001 through March 31, 2002
 Date Issued      Title of Report                                                    Report Number      Dollar Amount

 10/25/01         Social Security Administration's Management of Its Federal         A-13-99-91003          $1,286,969
                    Employees' Compensation Act Program

 11/20/01         Single Audit of the State of Michigan, Family Independence         A-77-02-00003              $9,186
                     Agency for the 2-Year Period Ended September 30, 2000

 1/29/02          Single Audit of the Commonwealth of Puerto Rico, Department of     A-77-02-00006            $170,768
                     the Family for the Fiscal Year Ended June 30, 1998

 1/30/02          Single Audit of the Commonwealth of Puerto Rico, Department of     A-77-02-00007          $5,286,119
                     the Family for the Fiscal Year Ended June 30, 1999

 2/25/02          Single Audit of the State of New York for the Fiscal Year Ended    A-77-02-00008              $4,263
                     March 31, 2000

 2/27/02          Controls Over the Social Security Administration’s Processing of   A-01-01-21038            $467,725
                    Death Records from the Department of Veterans Affairs

 3/8/02           Review of Maximus Contract Numbers 600-94-10784 and                A-15-00-30015          $1,962,097
                    600-95-22666 (Limited Distribution)

                                                                                     Total:                $9,187,127




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                                         67



                Reports With Questioned Costs – Reports Issued from
                     April 1, 2002 through September 30, 2002
 Date
               Title of Report                                                      Report Number     Dollar Amount
 Issued

 6/18/02       Financial-Related Audit of A. Holly Patterson Extended Care          A-02-02-12034                $3,901
                  Facility - A Representative Payee for the Social Security
                  Administration

 7/26/02       Management Advisory Report on the Single Audit of the State of       A-77-02-00014            $366,019
                 Florida for the Fiscal Year Ended June 30, 2001

 7/31/02       Representative Payee Investigation of Case Management                A-02-01-21041            $163,669
                 Services (No Distribution Available)

 9/13/02       Controls to Prevent Supplemental Security Income Payments to         A-01-02-12013            $337,339
                 Recipients Living in Foreign Countries

 9/17/02       Financial-Related Audit of the Florida Department of Children        A-08-02-12007            $135,717
                  and Families - District 6, An Organizational Representative
                  Payee for the Social Security Administration

 9/17/02       Effectiveness of the Social Security Administration’s Death          A-09-02-22023          $5,357,510
                  Termination Process

               Total Questioned Costs for April1, 2002 through                                            $6,364,155
                 September 30, 2002

               Total Questioned Costs for Fiscal Year 2002                                               $15,551,282




           Reports With Funds Put to Better Use – Reports Issued from
                    October 1, 2001 through March 31, 2002
 Date Issued    Title of Report                                                      Report Number      Dollar Amount

 2/11/02        Review of the Social Security Administration’s Cost Effectiveness    A-07-00-10028           $105,995
                  Measurement System

                                                                                     Total:                 $105,995




           Reports With Funds Put to Better Use – Reports Issued from
                   April 1, 2002 through September 30, 2002
 Date
            Title of Report                                                     Report Number        Dollar Amount
 Issued

 6/26/02    Continuing Disability Reviews for Supplemental Security Income      A-01-02-12031              $3,859,588
              Recipients Approved Based on Low Birth Weight

 7/3/02     The Social Security Administration Can Recover Millions in          A-08-02-12029            $146,549,181
              Medicare Premiums Related to Retirement or Disability
              Payments Made After Death

 9/10/02    Review of Internal Controls for the Supplemental Security           A-05-00-10045                    $6,400
              Income Immediate Payment Process




                                                                                                             Appendix B
          68                           SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



               Reports With Funds Put to Better Use – Reports Issued from
                       April 1, 2002 through September 30, 2002
 Date
               Title of Report                                                   Report Number   Dollar Amount
 Issued

 9/20/02       Impact on the Social Security Administration's Programs When      A-01-02-22006         $8,905,652
                 Auxiliary Beneficiaries Do Not Have Their Own Social Security
                 Numbers

               Total Funds Put to Better Use for April1, 2002 through                               $159,320,821
                 September 30, 2002

               Total Funds Put to Better Use for Fiscal Year 2002                                   $159,426,816




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                              69



Appendix C
Reporting Requirements Under The Omnibus Consolidated
Appropriations Act For Fiscal Year 1997
To meet the requirement of the Omnibus Consolidated Appropriations Act for 1997 (Public Law
104-208), we are providing in this report requisite data for Fiscal Year (FY) 2002 from the Offices of
Investigations (OI) and Audit (OA).

Office of Investigations

We are reporting $48,793,947 in Social Security Administration (SSA) funds as a result of our OI
activities in this reporting period. These funds are broken down in the table below.

                                            OI Activities
                   1st Quarter       2nd Quarter      3rd Quarter       4th Quarter      Total

  Court Ordered         $4,929,214       $5,370,068        $4,104,013       $3,665,128       $18,068,423
    Restitution

  Scheduled             $8,130,606       $7,094,851        $7,197,153       $7,011,415       $29,434,025
    Recoveries

  Fines                   $197,782         $168,319          $229,200         $121,644            $716,945

  Settlements/            $240,992         $234,312           $20,960          $78,290            $574,554
    Judgments

  Totals              $13,498,594      $12,867,550       $11,551,326      $10,876,477       $48,793,947


Office of Audit

SSA management has informed OA that it has completed implementing recommendations from five
audit reports during this fiscal year valued at over $78 million.

Supplemental Security Income Underpayments Due Deceased Recipients (A-01-97-52006), May 8,
1998

We recommended that SSA correct the approximately 186,094 SSI records with underpayments
worth an estimated $72.37 million, which are not payable to anyone.

Implementation of Drug Addiction and Alcoholism Provisions of Public Law 104-12 (A-01-98-61014),
May 12, 2000

We recommended that SSA ensure that the 3,269 cases it agreed to review are completed, the
coding corrected, and the benefits terminated where appropriate. The implemented
recommendation is valued at almost $5.3 million.

Single Audit of the Illinois Department of Human Services for the 2-Year Period Ended June 30,
1999 (A-77-01-00009), July 17, 2001

We recommended that SSA remind the Disability Determination Service (DDS) to adhere to the
terms of the Cash Management Improvement Agreement. The implemented recommendation is
valued at $12,994.



                                                                                                 Appendix C
        70                     SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



Audit of the Administrative Costs Claimed by the Arizona Department of Economic Security for its
Disability Determination Services Division (A-15-99-51009), August 31, 2001

We recommended that SSA reduce the Fiscal Year 1997 Automated Investment Funds Form
SSA-4513 expenditures by $137,759, which could not be substantiated.

Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for the Social
Security Administration (A-09-00-10068), September 18, 2001

We recommended that SSA direct Outreach, Inc. to amend the title of its checking account to obtain
Federal Deposit Insurance Corporation coverage of $100,000 for each individual. The implemented
recommendation is valued at $565,062.

We also recommended that SSA direct Outreach, Inc. to take action to ensure: (1) any individuals
with conserved funds in excess of $100,000 are fully protected against loss; and (2) individuals earn
interest on their conserved funds in accordance with SSA policy. The implemented recommendation
is valued at $67,832.




Appendix C
SSA OFFICE OF THE INSPECTOR GENERAL                                                                    71



Appendix D
Collections From Investigations and Audits
This Fiscal Year (FY) 1999 appropriations language for this office requires us to report additional
information concerning actual cumulative collections and offsets achieved as a result of Inspector
General activities each semiannual period.

Office of Investigations

 Total Restitution Reported by the Department of Justice (DoJ) as Collected
                    for the Social Security Administration
               Total Number of
               Individuals
                                 Court Ordered Restitution
 FY            Assigned Court                                              Total Restitution Collected by DOJ
                                 for This Period
               Ordered
               Restitution

 2000                      441                               $13,526,283                              $2,232,424

 2001                      670                               $23,067,026                             $25,565,712

 2002                      600                               $18,068,423                              $2,643,872

 Totals                 1,711                            $46,916,346                                $30,442,008




                                                Funds Received

                         Total Number of
                                                                                       Actual Amount
                            Recovery              Amount Scheduled for
                                                                                   Recovered at the Close
          FY                 Actions                   Recovery
                                                                                    of the Investigation
                            Initiated

 2000                                    445                        $12,722,135                       $4,320,432

 2001                                   1,994                       $33,958,212                      $13,804,187

 2002                                   2,202                       $29,434,025                       $8,765,025

 Totals                                4,641                       $76,114,372                      $26,889,644




                                                                                                        Appendix D
          72                     SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



Office of Audit

The following chart summarizes the Agency’s responses to OIG’s recommendations for the recovery
or redirection of questioned and unsupported costs. This information is prepared in coordination
with the Agency’s management officials and is current as of September 30, 2002.

                Responses to OIG’s Recommendations for the Recovery or
                    Redirection of Questioned and Unsupported Costs
             Number of
              Reports
                with      Questioned/                        Amount           Amount
             Questioned   Unsupported     Management      Collected or to   Written-Off/
   FY          Costs         Costs        Concurrence     be Recovered      Adjustments      Balance

 2000                7      $76,991,654     $76,990,499        $119,511           $1,155     $76,870,988

 2001               23     $135,100,905    $131,165,106     $87,438,417         $595,443     $47,127,831

 2002               13      $15,551,282      $7,352,061       $2,750,940      $1,881,684     $11,685,325

 Totals            43     $227,643,841    $215,507,666     $90,308,868       $2,478,282    $135,684,144




Appendix D
SSA OFFICE OF THE INSPECTOR GENERAL                                                        73



Appendix E
Significant Monetary Recommendations From Prior Fiscal Years
for Which Corrective Actions Have Not Been Completed
Old-Age, Survivors and Disability Insurance Benefits Paid to Fugitives (A-01-00-10014), August 29,
2000

Recommendation: We recommended that the Social Security Administration (SSA) pursue
legislation prohibiting payment of Old-Age, Survivors and Disability Insurance (OASDI) benefits to
fugitives similar to the provisions pertaining to Supplemental Security Income (SSI) payments
under Public Law 104-193.

Valued at: $39,646,884 in funds put to better use, based on legislative action.

Agency Response: SSA agreed that the proposal to suspend OASDI benefits for fugitive felons, as
is currently done in the SSI program, deserves serious consideration. Further, SSA recognized that it
may be viewed as problematic to have different fugitive felon standards for the OASDI and SSI
programs.

Corrective Action: A provision in H.R. 4070 introduced in March 2002, would deny title II benefits
to fugitive felons.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013), August 28, 2000

Recommendation: We recommended that SSA reach agreement with State agencies, which either
do not enter all fugitive felon data into the National Crime Information Center (NCIC) or provide
data to the United Stated Department of Agriculture, to obtain their fugitive information in an
electronic format on a routine basis.

Valued at: $76,418,468 in questioned costs and $29,856,060 in funds put to better use.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA has matching agreements with Kentucky, Massachusetts, New Jersey,
South Carolina, Tennessee and Baltimore City. However, SSA has learned that there are more
sources than originally thought which do not submit fugitive felon data to the NCIC. Although it will
take longer than expected, SSA's Regional Fugitive Coordinators and field office staff will continue
setting up new matching agreements with State and local authorities until the task is completed.
The staff resources available to identify reporting entities, negotiate agreements and analyze data
will dictate the amount of time needed to complete all of the required agreements.

Payments to Child Beneficiaries Age 18 or Over Who Were Neither Students Nor Disabled
(A-09-99-63008), May 18, 2000

Recommendation: We recommended that SSA modify its automated system to terminate benefits
to child beneficiaries at age 18 if they are neither under a disability nor a full time student.

Valued at: $435,282 in questioned costs.

Agency Response: SSA agreed that all child beneficiaries who are neither under a disability nor
full-time students should have their benefits automatically terminated at age 18.



                                                                                            Appendix E
        74                       SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



Corrective Action: SSA plans to more fully automate this workload with implementation of Release
3 of the Title II Redesign. Release 3 will provide the systems capability to: (1) terminate benefits to
child beneficiaries at age 18 if they are neither under a disability nor full-time students; and (2)
automate the processing of many of the complex cases now worked manually, such as those
involving workers' compensation. Some cases will still require manual processing because of the
level of complexity, e.g., triple entitlement. While it is not possible to predict exact numbers of cases
at this point, we anticipate that the majority of this workload will be fully automated with Release 3,
which is expected to be implemented by December 2003.

SSA Incorrectly Paid Attorney Fees on Disability Income Cases When Workers' Compensation
Payments Were Involved (A-04-98-62001), March 8, 2000

Recommendation: We recommended that SSA review the cases in our sample to determine the
proper attorney fee payment and take the required actions on the $18,410 in errors of which
$17,238 were overpayments and $1,172 were underpayments.

Valued at: $33,852,529 in funds put to better use and $17,238 in questioned costs.

Agency Response: SSA agreed. They will review the sample cases and take the appropriate action.

Corrective Action: SSA’s Office of Operations continues working with the attorney on one
remaining sample case as it requires additional time to resolve.




Appendix E
SSA OFFICE OF THE INSPECTOR GENERAL                                                         75



Appendix F
Significant Nonmonetary Recommendations From Prior Fiscal
Years for Which Corrective Actions Have Not Been Completed
Audit of Enumeration at Birth Program (A-08-00-10047), September 27, 2001

Recommendation: We recommended that the Social Security Administration (SSA) re-invest some
of the savings realized by the Enumeration at Birth (EAB) Program and provide necessary funding,
during future contract modifications, for the Bureaus of Vital Statistics to perform periodic,
independent reconciliations of registered births with statistics obtained from hospitals’ labor and
delivery units and periodically verify the legitimacy of sample birth records obtained from hospitals.

Agency Response: SSA agreed in principle with the recommendation.

Corrective Action: The current EAB contracts expire on December 31, 2002. Negotiations for the
new EAB contracts with the States began in March 2002 and are continuing. SSA recently received
written confirmation of the EAB rate payable for 2003 and other contract terms from the National
Association of Public Health Statistics and Information Systems. By December 2002, contract
negotiations for EAB should be complete. SSA will propose the recommended review to the States
during the contract negotiations. The new EAB contracts will take effect on January 1, 2003, and will
most likely continue through December 31, 2007.

Recommendation: We recommended that SSA enhance its duplicate record detection and prior
Social Security number (SSN) detection routines to provide greater protection against the
assignment of multiple SSNs.

Agency Response: SSA agreed on the issue of duplicate record detection. They also agreed that
there are cases where a subsequent SSN application is not identified due to minor changes in
names.

Corrective Action: For EAB cases, the duplicate record detection routine currently considers two
SSN applications to be duplicate only if the required data fields match exactly, including birth
certificate numbers. For example, if the birth certificate numbers for two records are different, the
records are not treated as possible duplicates even if the other data fields are identical. Agreement
has been reached to have the routine consider two SSN applications to be duplicate if all of the
required data fields match exactly, even if the birth certificate numbers are different. The Office of
Operations prepared and submitted an Information Technology Plan on July 30, 2002, for which they
must decide on whether Systems resources should be allocated. For non-EAB cases, the Office of
Systems staff met and discussed this recommendation and determined it would be possible to
modify the automated enumeration screening process to detect variations in the spelling of
applicant names. However, while this would provide greater protection against the assignment of
multiple SSNs, there would be undesirable consequences. It would create delays in the processing of
multiple birth cases. The envisioned routine would catch some, but not all, of the 93 multiple SSN
examples cited by the Office of the Inspector General (OIG). The findings have been shared with the
user community.

Performance Measure Review: Reliability of the Data Used to Report 800-Number Performance
(A-02-00-10019), September 18, 2001




                                                                                             Appendix F
        76                      SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



Recommendation: We recommended that SSA formally document the process by which the
800-number performance measurements are derived.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The responsibility for maintaining the 800-number data used to report on the
Agency’s performance measures has been moved under one office, the Office of Telecommunications
and Systems Operations (OTSO).

OTSO is in the process of building a staff to handle this and similar work in its Capacity Planning
area. It is expected that production of statistics, along with commensurate controls to prevent
unauthorized access will be completed within the first quarter of Fiscal Year (FY) 2003.
Documentation of the process will follow and is expected to be completed by January 31, 2003.

Payments Made to Selected Representative Payees After the Deaths of Social Security Beneficiaries
(A-13-01-21028), September 18, 2001

Recommendation: We recommended that SSA resolve beneficiary date-of-death discrepancies we
identified and develop and implement procedures for the timely and accurate recordation of dates of
death.

Agency Response: SSA has already begun to correct the records containing date-of-death
discrepancies.

Corrective Action: SSA will review the procedures the payee has implemented to ensure
compliance with our regulations and to prevent future occurrences of this nature. In addition, a new
Death Alert, Control and Update System process is scheduled to be completed in FY 2003, which will
identify deceased representative payees in the Representative Payee System.

Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027), August 21,
2001

Recommendation: We recommended that SSA collect each attorney’s SSN, name and address
information so Internal Revenue Service (IRS) Form 1099 can be issued to attorneys.

Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form 1099
to attorneys and is developing a business process for issuing these forms.

Corrective Action: The Executive Task Force has established a target of issuing Form 1099s to
attorneys in January 2005 (representing attorneys fees received during tax year 2004). The Office
of Systems is currently conducting planning and analysis sessions to plan and develop systems
enhancements necessary to collect the appropriate attorney data and issue the Form 1099s.

Audit of the Social Security Administration’s Fiscal Year 2001 Annual Performance Plan
(A-02-00-10038), June 18, 2001

Recommendation: We recommended that SSA coordinate with the Centers for Medicare &
Medicaid Services to determine which Agency should establish performance goals for service to
Medicare recipients.

Agency Response: SSA will explore the feasibility of establishing such a goal.

Corrective Action: SSA has had discussions with the Centers for Medicare & Medicaid Services
regarding this recommendation. At this time an implementation date has not been set.


Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                         77



Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry (A-08-99-41004),
January 22, 2001

Recommendation: We recommended that SSA establish goals and measures, in accordance with
the Government and Performance Results Act of 1993, which tracks SSA’s success in reducing the
growth and size of the Earnings Suspense File (ESF).

Agency Response: SSA agreed that a performance measure related to the steps being taken to
limit the growth of the ESF may be appropriate.

Corrective Action: Senior Financial Executive (SFE) staff, working with the Earnings Team, are
exploring a proposed performance indicator that would measure the percentage reduction in
name/SSN mismatches compared to the total number of Forms W-2 received in a given tax year.
Since the number of Forms W-2 vary each tax year, this would permit a measure to be based on
total Form W-2s received. SFE will disseminate its proposed performance measure for Agency
concurrence.

Procedures for Verifying Evidentiary Documents Submitted With Original Social Security Number
Applications (A-08-98-41009), September 19, 2000

Recommendation: We recommended that SSA accelerate negotiations with United States
Immigration and Naturalization Service (INS) and the United States Department of State (DOS) to
implement the Enumeration at Entry Program. Once implemented, all non-citizens should be
required to obtain their SSNs by applying at one of these Agencies.

Agency Response: SSA agreed that accelerated negotiations are necessary and SSA is committed
to the implementation of the Enumeration at Entry Program.

Corrective Action: SSA established a Memorandum of Understanding (MOU) with the INS as of
December 2000. The MOU establishes the provisions under which INS will initially transmit
validation information to SSA for use in assigning SSNs to recently admitted immigrants (i.e.,
permanent resident aliens). It also identifies the long-term goals for INS assistance in meeting SSA’s
objective to prevent individuals from using fraudulently obtained documents to obtain valid SSNs.
SSA, INS and DOS have discussed and finalized the technical aspects of the data transfer. DOS and
INS are making the necessary changes to electronically provide the enumeration data to SSA. The
target implementation date is October 31, 2002.

Recommendation: We recommended that SSA continue efforts and establish an implementation
date for planned system controls that will interrupt SSN assignment when multiple cards are mailed
to common addresses not previously determined to be legitimate recipients (for example, charitable
organizations) and/or when parents claim to have had an improbably large number of children.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Agency continues its efforts to implement enhancements in the Modernized
Enumeration System (MES). The General Project Scope Agreement (PSA) for this initiative was
signed in November 2000. It breaks the effort into three separate releases. The PSA for Release 1,
which will handle the “too-many-children” issue, was signed December 2000 and scheduled for
implementation in May 2003. Release 2 will interrupt processing for “too-many-cards” to the same
address; and will likely be completed within 18 months of Release 1. Release 3 will expand the
capabilities of the use of the development worksheets implemented in releases 1 and 2. Also, the
MES process will be revised to include all alert conditions on the same feedback/investigate
message.




                                                                                             Appendix F
        78                       SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



The Social Security Administration is Pursuing Matching Agreements With New York and Other
States Using Biometric Technologies (A-08-98-41007), January 19, 2000

Recommendation: SSA should pursue a matching agreement with New York, so that the Agency
can use the results of the State’s biometric technologies to reduce and/or recover any improper
benefit payments.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA’s Office of Disclosure Policy (ODP) developed a draft Computer Matching
Privacy Protection Act agreement and sent it for component comments in June 2001. ODP met with
OIG on January 24, 2002 to discuss the outstanding issues that need to be resolved before any
match is undertaken. There is still a need for a component sponsor, a cost benefit analysis, and the
development of a detailed workplan. Since the information OIG is working from is over 7-years old,
this information needs to be reevaluated. A meeting was held in March 2002 with privacy experts to
discuss the match and it was determined that a new submission for SSA’s Data Integrity Board will
be completed with OIG assistance.

Recommendation: SSA should initiate a pilot review to assess the cost efficiency of matching data
with other States that have employed biometrics in their social service programs.

Agency Response: SSA agreed with the recommendation.

Corrective Action: An MOU for applicants between SSA and the New York State Office of
Temporary and Disability Assistance was signed June 2001 to use finger imaging data captured by
New York State when individuals apply for public assistance. A biometric pilot in New York was
scheduled to begin sometime in December 2001. ODP received comments from all SSA components
on a proposed Federal Register notice that would have announced the changes to existing systems
of record that are related to this project. Due to the reaction from SSA components, this project is
on hold.

Since the MOU, the pilot methodology has been revised considerably. The new method of verifying
claimant identity will be non-electronic. SSA will begin three State-level projects, which involve the
verification, via photograph, of the identity of an individual at a consultative examination (CE)
requested by the DDS. Photographs of claimants applying for disability benefits will be taken and
made a part of the disability claims file. The evidence collected will be used both in initial claim
situations and subsequently to verify a claimant’s identity during redeterminations and continuing
disability reviews. It is anticipated that the study will provide data regarding the rate of identity
match/non-match at the time of the CE and the rate of claimants who have photographic
identification available at the initial interview in the field office. The proposal included both title II
and title XVI adult applicants. Because of the mandatory nature of the provisions, a new regulation
is needed to deny claims if consent for being photographed is not given. A regulation has been
drafted and will be sent to the Office of Management and Budget. Depending on the nature of public
comments we will receive, and the actions required of SSA, the pilots could begin as early as
October 2002.

Nonresponder Representative Payee Alerts for Supplemental Security Income Recipients
(A-09-96-62004), September 23, 1999

Recommendation: We recommended that SSA develop procedures for employees to redirect
benefit checks to field offices (and require representative payees to provide the accounting forms
before releasing the checks) in instances where other attempts to obtain the required forms have
been unsuccessful.




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                           79



Agency Response: SSA agreed, in part. When a representative payee does not respond or will not
cooperate after repeated attempts to obtain an annual accounting, the field office is required to
consider a change of payee when necessary. When the field office determines that a change of
payee is necessary, they develop for a successor payee. If a payee is not readily available, the
beneficiary is paid directly or placed in suspense status under certain limited circumstances.

Corrective Action: In February 2000, SSA proposed legislation to redirect benefit checks when
representative payees fail to complete the required accounting form as part of a package of
improvements to the payee monitoring process. This change was included in H.R. 4857, as adopted
by the Ways and Means Committee in September 2000. SSA has included this legislative change as
part of the FY 2003 legislative package that was sent to the Office of Management and Budget in
October 2001. A similar provision has been included in H.R. 4070, which passed the House of
Representatives on June 26, 2002 and has been introduced in the Senate, which is expected to take
up the bill later this year. SSA has expressed its support for this provision and no Agency actions will
be targeted until the legislation has been approved.




                                                                                               Appendix F
        80   SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                         81



Appendix G
Significant Management Decisions With Which The Inspector
General Disagrees
Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have
Their Own Social Security Numbers (A-01-02-22006), September 20, 2002

Recommendation: We recommended that the Social Security Administration (SSA) modify the
missing Beneficiary’s Own Account Number (BOAN) alert process to include auxiliary beneficiaries
who became entitled to benefits prior to June 1989.

Agency Response: SSA disagreed since they are not required by statute to require a Social
Security number for auxiliaries entitled before June 1989. However, SSA has addressed the need for
SSA staff to make every effort to ascertain, verify and post missing BOANs, including those for
auxiliary beneficiaries entitled before June 1989.

Measure Advisory Report: Summary of Financial-Related Audits of Representative Payees for the
Social Security Administration (A-13-00-10065), August 5, 2002

Recommendation: We recommended that SSA pilot the use of stored value cards (SVC) or similar
technology for Representative Payees.

Agency Response: SSA disagreed and believes the use of SVCs would be very time-consuming and
labor-intensive for both large payee organizations and individuals serving multiple beneficiaries and
for representative payees serving only a small number of beneficiaries.

As noted by OIG in the report, the elimination of the Representative Payee Report would require a
legislative amendment to the Social Security Act. Without this change and a provision mandating
the use of SVCs by all representative payees, the Agency would, in effect, have two accounting
processes to maintain.

We continue to believe SSA should conduct a pilot of SVC use for Rep Payees. A pilot on the use of
SVCs supports the President’s Management and Performance Plan for electronic government and the
Paperwork Reduction Act of 1995. In addition, the success of similar initiatives in other agencies has
significantly reduced operating expenses (U.S. Military) as well as program fraud (Department of
Agriculture).

The purpose of performing the pilot is to determine the feasibility, any limitations, necessary
modifications, costs, benefits, legal implications, etc., of SVCs. Given the problems our audits and
investigations of Rep Payees continue to identify, as well as SSA’s inability to retrieve over 50
percent of the Representative Payee Reports, we believe SSA should determine whether such
technology has limited or widespread potential use for SSA’s Representative Payee Program.




                                                                                             Appendix G
        82   SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Appendix G
SSA OFFICE OF THE INSPECTOR GENERAL                                                                            83



Appendix H
Reporting Requirements

                        Requirement                                                                    Pages

 Section 4(a)(2)        Review of Legislation and Regulations                                          N/A

 Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                                 3-57

 Section 5(a)(2)        Recommendations With Respect to Significant Problems, Abuses, and              3-57
                          Deficiencies

 Section 5(a)(3)        Recommendations Described in Previous Semiannual Reports on Which              Appendices E & F
                          Corrective Actions Have Not Been Completed

 Section 5(a)(4)        Matters Referred to Prospective Authorities and the Prosecutions and           14
                          Convictions Which have Resulted

 Sections 5(a)(5) and   Summary of Instances Where Information Was Refused                             N/A
 Section 6(b)(2)

 Section 5(a)(6)        List of Audits                                                                 Appendix B

 Section 5(a)(7)        Summary of Particularly Significant Reports                                    23-57

 Section 5(a)(8)        Statistical Table Showing the Total Number of Audit Reports and Total Dollar   Appendix A
                          Value of Questioned Costs

 Section 5(a)(9)        Statistical Table Showing the Total Number of Audit Reports and Total Dollar   Appendix A
                          Value of Funds Put to Better Use

 Section 5(a)(10)       Audit Recommendations More Than 6 Months Old For Which No Management           Appendix A
                          Decision Has Been Made

 Section 5(a)(11)       Significant Management Decisions That Were Revised During the Reporting        N/A
                           Period

 Section 5(a)(12)       Significant Management Decisions With Which the Inspector General              Appendix G
                           Disagrees




                                                                                                               Appendix H
        84   SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Appendix H
SSA OFFICE OF THE INSPECTOR GENERAL                                      85



Appendix I
Glossary

 Abbreviation            Definition

 AIG                     Assistant Inspector General

 ALJ                     Administrative Law Judge

 AMD                     Allegation Management Division

 BOAN                    Beneficiary’s Own Account Number

 CDI                     Cooperative Disability Investigations Program

 CDR                     Continuing Disability Review

 CE                      Consultative Examination

 CEMS                    Cost Effectiveness Measurement System

 CFO                     Chief Financial Officers Act of 1990

 CID                     Critical Infrastructure Division

 CMP                     Civil Monetary Penalty

 CMPPA                   Computer Matching and Privacy Protection Act

 DAA                     Drug Addiction and Alcoholism

 DDS                     (State) Disability Determination Services

 DI                      Disability Insurance

 DIG                     Diagnosis Codes

 DMF                     Death Master File

 DoJ                     Department of Justice

 DoL                     Department of Labor

 DoS                     Department of State

 EAB                     Enumeration at Birth

 ECT                     Electronic Crimes Team

 eDib                    Electronic Disability

 EF                      Electronic Folder

 ESF                     Earnings Suspense File

 EVS                     Employee Verification Service

 FECA                    Federal Employees’ Compensation Act

 FO                      Field Office

 FY                      Fiscal Year

 GAO                     General Accounting Office

 GPRA                    Government Performance and Results Act




                                                                          Appendix I
          86        SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002



 Abbreviation   Definition

 HEREIU         Hotel Employees and Restaurant Employees International Union

 H.R.           House of Representatives

 IG             Inspector General

 INS            Immigration and Naturalization Service

 IRS            Internal Revenue Service

 MEF            Master Earnings File

 MES            Modernized Enumeration System

 MOU            Memorandum of Understanding

 NCIC           National Crime Information Center

 OA             Office of Audit

 OASDI          Old-Age, Survivors and Disability Insurance

 OASI           Old-Age and Survivors Insurance

 OCCIG          Office of the Chief Counsel to the Inspector General

 OCSE           Office of Child Support Enforcement

 ODP            Office of Disclosure Policy

 OEO            Office of Executive Operations

 OHA            Office of Hearings and Appeals

 OI             Office of Investigations

 OIG            Office of the Inspector General

 OMB            Office of Management and Budget

 OPM            Office of Personnel Management

 OTSO           Office of Telecommunications and Systems Operations

 PAL            Prague Assisted Living (Center)

 PD             Police Department

 PDD            Presidential Decision Directive

 PIN            Personal Identification Number

 P.L.           Public Law

 PwC            PricewaterhouseCoopers LLP

 POMS           Program Operations Manual System

 PSA            (The General) Project Scope Agreement

 RPR            Representative Payee Reports

 RPS            Representative Payee System

 SFE            Senior Financial Executive

 SSA            Social Security Administration

 SSI            Supplemental Security Income




Appendix I
SSA OFFICE OF THE INSPECTOR GENERAL                                    87



 Abbreviation            Definition

 SSN                     Social Security number

 SSNVS                   Social Security Number Verification Service

 SVC                     Stored Value Card

 VA                      Department of Veterans Affairs




                                                                        Appendix I
        88   SEMIANNUAL REPORT TO CONGRESS APRIL 1, 2002 - SEPTEMBER 30, 2002




Appendix I
Social Security Administration
Office of the Inspector General

      Semiannual Report to Congress
        MISSION STATEMENT                                                                                           Inspector General

                                                                                                                    James G. Huse, Jr.
        By conducting independent and objective audits, evaluations,
        and investigations, we improve the SSA programs and                                                  Deputy Inspector General
        operations and protect them against fraud, waste, and abuse.
                                                                               Immediate Office of
        We provide timely, useful, and reliable information and advice        the Inspector General                    Jane E. Vezeris
        to Administration officials, Congress, and the public.


                   VISION AND VALUES                                          Chief Counsel to the
                                                                               Inspector General
                                                                                                         Assistant Inspector
                                                                                                              General
                                                                                                                                        Assistant Inspector
                                                                                                                                             General
                                                                                                                                                                      Assistant Inspector
                                                                                                                                                                           General
                                                                                                             for Audit                  for Investigations         for Executive Operations
                   We are agents of positive change striving for continuous     Kathy A. Buller
                                                                                                         Steven L. Schaeffer           Patrick P. O’Carroll          Stephanie J.Palmer
                   improvement in SSA’s programs, operations, and
                   management by proactively seeking new ways to prevent
                   and deter fraud, waste, and abuse. We are committed to
                   integrity and to achieving excellence by supporting an
                   environment that encourages employee development and
                   retention, and fosters diversity and innovation, while      Deputy Chief Counsel to   Deputy Assistant Inspector   Deputy Assistant Inspector   Deputy Assistant Inspector
                   providing a valuable public service.                         the Inspector General       General for Audit         General for Investigations     General for Executive
                                                                                                                                                                          Operations

                                                                                   Glenn E. Sklar              Gale S. Stone               Steve W. Mason             Robert L. Meekins
        How to Report Fraud
The SSA OIG Fraud Hotline offers a means for you
to provide information on suspected fraud, waste,
and abuse. If you know of current or potentially
illegal or improper activities involving SSA programs
or personnel, we encourage you to contact the SSA
OIG Fraud Hotline.
Call                 1-800-269-0271
Write                Social Security Administration
                     Office of the Inspector General
                     Attention: SSA Fraud Hotline
                     P. O. Box 17768
                     Baltimore, MD 21235
Fax                  410-597-0118
Email                oig.hotline@ssa.gov                                 An Investment in Integrity
web                  www.ssa.gov/oig
                                                                         Social Security Administration
                                                                         Office of the Inspector General


                                                                         Semiannual
        To obtain additional copies of this report, visit our website,
                  www.ssa.gov/oig or call 410-966-4020
                                                                          Report to Congress
                           SSA Pub. No. 85-007
                                                                         April 1, 2002 Thru September 30, 2002
                              October 2002
